<html>
<title> - THE IMPLICATIONS OF THE REINTERPRETATION OF THE FLORES SETTLEMENT AGREEMENT FOR BORDER SECURITY AND ILLEGAL IMMIGRATION INCENTIVES</title>
<body><pre>[Senate Hearing 115-809]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-809

                THE IMPLICATIONS OF THE REINTERPRETATION
                 OF THE FLORES SETTLEMENT AGREEMENT FOR
           BORDER SECURITY AND ILLEGAL IMMIGRATION INCENTIVES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2018

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
                               __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-944 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California
JON KYL, Arizona                     DOUG JONES, Alabama

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
                    Daniel P. Lips, Policy Director
              Brian P. Kennedy, Professional Staff Member
              Melissa C. Egred, Professional Staff Member
               Margaret E. Daum, Minority Staff Director
               J. Jackson Eaton, Minority Senior Counsel
                  Caitlin A. Warner, Minority Counsel
          Hannah N. Berner, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     4
    Senator Portman..............................................    19
    Senator Peters...............................................    21
    Senator Lankford.............................................    24
    Senator Hassan...............................................    28
    Senator Heitkamp.............................................    31
    Senator Daines...............................................    33
    Senator Jones................................................    36
    Senator Harris...............................................    38
    Senator Carper...............................................    41
Prepared statements:
    Senator Johnson..............................................    49
    Senator McCaskill............................................    50

                               WITNESSES
                      Tuesday, September 18, 2018

Matthew T. Albence, Executive Associate Director, U.S. 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security..............................................     7
Robert E. Perez, Acting Deputy Commissioner, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security........    10
Joseph B. Edlow, Acting Deputy Assistant Attorney General, Office 
  of Legal Policy, U.S. Department of Justice....................    11
Rebecca Gambler, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office...............................    13

                     Alphabetical List of Witnesses

Albence, Matthew T.:
    Testimony....................................................     7
    Prepared statement...........................................    55
Edlow, Joseph B.:
    Testimony....................................................    11
    Prepared statement...........................................    65
Gambler, Rebecca:
    Testimony....................................................    13
    Prepared statement...........................................    70
Perez, Robert E.:
    Testimony....................................................    10
    Prepared statement...........................................    60

                                APPENDIX

UAC Apprehensions Chart..........................................    89
Family Apprehensions Chart.......................................    90
Murders vs. Asylum Claims Chart..................................    91
How Many are Removed Chart.......................................    92
Executive Office of Immigration Review Asylum Rates Chart........    93
IDA Study........................................................    94
Statements submitted for the Record:
    Mental Health Professionals..................................   127
    American Immigration Council.................................   177
    Drs. Scott Allen and Pamela McPherson........................   181
    Church World Service.........................................   191
    Friends Committee on National Legislation....................   192
    Kids in Need of Defense (KIND)...............................   194
    Lutheran Immigration and Refugee Service.....................   198
    Non-governmental organizations...............................   202
    United States Conference of Catholic Bishops.................   211
Responses to post-hearing questions for the Record:
    Mr. Albence and Mr. Perez....................................   219
    Mr. Edlow....................................................   303
    Ms. Gambler..................................................   308

 
                        THE IMPLICATIONS OF THE
                     REINTERPRETATION OF THE FLORES
                    SETTLEMENT AGREEMENT FOR BORDER
              SECURITY AND ILLEGAL IMMIGRATION INCENTIVES

                              ----------                              


                      TUESDAY, SEPTEMBER 18, 2018

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Daines, Kyl, 
McCaskill, Carper, Heitkamp, Peters, Hassan, Harris, and Jones.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I want to thank our witnesses for your time for appearing, 
for your thoughtful testimony. We are looking forward to 
hearing it and looking forward to your answering what I hope 
will be some really good questions by the Committee.
    I also want to thank the audience members for attending. We 
have a long line out here. It is nice to have a hearing that 
people are interested in. I do want to point out that this is 
not audience participation. We do hope that you sit and listen 
to the proceedings respectfully.
    This hearing really is a follow-on to a problem that I 
think everybody recognized. Obviously, it became pretty 
controversial, but we took a look at this on our Committee in 
August. We had a meeting with the Committee to figure out what 
we can do to solve the issue about being able to enforce our 
immigration laws without separating families. I do not think 
anybody wanted to do that.
    In that meeting I proposed four basic goals that I hoped we 
could agree on. I am not sure we have total agreement, but the 
goals that I proposed in trying to focus on fixing this 
problem--we are not talking about comprehensive immigration 
reform here. We are really talking about trying to fix this 
particular problem. The four goals I laid out was, hopefully we 
all want to secure our border--I think a sovereign nation needs 
to do that--enforce our immigration laws, maintain reasonable 
asylum standards, and also keep asylum-seeking families 
together. I thought those were four reasonable goals. I thought 
we had a very good discussion in August.
    Senator McCaskill certainly pointed out and other people on 
the Democrat side talked about we really do need to take a look 
at alternatives to detention, take a look at research, take a 
look at the cost-effectiveness of that. I am happy to do that. 
We held, I think, 21 bipartisan briefings, with different 
groups in government and outside of government, trying to take 
a look at that issue.
    Again, this is all part of that problem-solving process. We 
are still gathering the information. I am not sure we have all 
of it. When you start taking a look at alternatives to 
detention, it is pretty complex. We do not have a whole lot of 
data on it. But I do want to start with a hearing chaired by me 
would not be complete without some charts. If we can put up our 
first chart here, it is just basically describing the problem.
    The first chart\1\ just shows the history of unaccompanied 
alien children (UAC) coming to this country illegally from 
Central America. You can take a look. In 2009, 2010, and 2011, 
on average, less than 4,000 unaccompanied children came in from 
Central America. Then starting in 2012, we began a surge with 
2014 being the most dramatic surge year. But it really has not 
abated all that much. This is just an ongoing problem, and, 
again, I would argue there are certainly things in our laws 
that have created an incentive for children to come in 
unaccompanied from Central America.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 89.
---------------------------------------------------------------------------
    Next chart?\2\
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 90.
---------------------------------------------------------------------------
    This is really the chart that is describing the problem 
that we are trying to address here today in this hearing. This 
is family units coming to this country. You can see in 2012 we 
had a little over 11,000 family units coming to this country, 
then 13,000 to 15,000, then in 2014, together with that surge 
of unaccompanied children from Central America, more than 
16,000 families surged across the border.
    The Obama Administration recognized that was a problem, and 
so they began detaining families so they could adjudicate the 
claims. Those that had valid asylum claims obviously stayed; 
those that did not have valid asylum claims were returned. It 
had an effect. In 2015, the number of families, still at an 
unacceptably high level, but it definitely dropped to 40,000. 
Then in July 2015, through court action, the Flores Settlement 
Agreement (FSA), which really dates back to 1985--and we will 
get a little bit of a history lesson, I am sure, from our 
witnesses--was reinterpreted and really applied to accompanied 
children as well as unaccompanied children, and that really 
forced the Obama Administration into a decision: Do we continue 
to detain people--well, they simply could not detain--well, do 
we detain the adult and be forced to release the child into 
Department of U.S. Health and Human Services (HHS) custody? 
They basically chose they were not going to do that. It began a 
process of basically apprehending families that came to the 
border, not being able to detain them, and then releasing them 
into the interior. We will be, I am sure, talking about the 
rates of deportation associated with not detaining individuals.
    That resulted in an incentive for more families to come in, 
and you can see the results: 77,000 in 2016, 76,000 in 2017, 
and already this year, in just 11 months, we are up over 90,000 
families. Again, this is a problem.
    Next chart?\1\
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 91.
---------------------------------------------------------------------------
    Now, I think it is pretty obvious that there are both push 
and pull factors at work here in terms of why people come to 
this country. It is a land of unlimited opportunity. That is a 
huge pull factor. But there is also violence and really 
destruction of public institutions certainly in Central America 
because of our insatiable demand for drugs and the drug 
cartels. This is a chart that combines murder rates in Central 
America versus asylum claims. I think what is interesting about 
this is even though murders have stayed relatively steady in 
terms of murder rates, very high--again, it is unacceptably 
high in Central America--asylum claims have shot up in the last 
couple of years. There is some disconnect here in terms of 
cause and effect in terms of a push factor out of Central 
America. There is something happening, and I would say there 
are a lot of incentives here, and we will talk about that, the 
Flores decision, the Trafficking Victims Protection 
Reauthorization Act (TVPRA). There are things that caused some 
incentives.
    Our next chart\2\ then?
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 90.
---------------------------------------------------------------------------
    The Obama Administration realized they had a problem with 
family units, and so back in 2014 and 2015, I think it was, the 
Secretary of Homeland Security, Jeh Johnson, commissioned study 
by the Institute for Defense Analysis just looking at--
basically the name of it was ``Describing the Adjudication 
Process for Unlawful Non-Traditional Migrants.'' This was 
published in June 2017. Again, this was commissioned by the 
Obama Administration. I would like to enter that in the 
record.\3\
---------------------------------------------------------------------------
    \3\ The report referenced by Senator Johnson appears in the 
Appendix on page 94.
---------------------------------------------------------------------------
    But what is showed is the removal rate for detained illegal 
immigrants versus not detained. You can see there is a dramatic 
difference, and also how many were actually detained out of 
their sample versus not detained. You can see for those illegal 
immigrants that were detained, 77 percent were removed. For 
those that were not detained, only 7 percent were removed, 
which, again, creates an awful lot of incentive for more family 
units to come to this country.
    I do not want to go on too much longer here, but we just 
kind of laid the ground work describing the problem. I would 
ask that my written statement be entered into the record.\4\
---------------------------------------------------------------------------
    \4\ The prepared statement of Senator Johnson appears in the 
Appendix on page 49.
---------------------------------------------------------------------------
    But I will just close by saying that what we have really 
created here for Customs and Border Protection (CBP), for U.S. 
Immigration and Customs Enforcement (ICE), for our law 
enforcement community is they have two options when it comes to 
dealing with people coming to this country illegally as a 
family unit, and both of them are bad. We either have to 
enforce the law and then are forced to separate parents from 
children--and nobody wants that to happen. That is no longer 
the policy--or revert to the Obama era policy, which is what we 
are under right now, which is we apprehend these families. We 
cannot hold them. We cannot really determine parentage, and we 
release them into the interior. We have very low removal rates 
for those that do not have valid asylum claims.
    I do not think that is an acceptable state of affairs. What 
we are trying to do in this Committee is look at that one 
specific problem and try and fix that on, I would call it, a 
nonpartisan basis. Just take a look at the facts, deal with 
that information, try and set an achievable goal, and design a 
solution. That is the purpose of this hearing. It is the 
purpose of our efforts, and I for one hope we succeed.
    With that, I will turn it over to Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you. I want to recognize the 
witnesses before us today first and applaud the work you do. I 
know from my time as a prosecutor that law enforcement 
officials go to work each day not thinking about themselves 
and, frankly, sometimes not even thinking about their families 
but, rather, how do we keep our communities safe and how do we 
keep each other safe. That is true of law enforcement officers 
of both CBP and ICE.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 50.
---------------------------------------------------------------------------
    The selflessness of service is also true of the immigration 
judges, public servants who work at the Department of Justice 
(DOJ) and the independent auditors, analysts, and watchdogs at 
the U.S. Government Accountability Office (GAO). I know 
firsthand that our Federal law enforcement officers face real 
challenges in carrying out their jobs. I have seen the 
ingenuity of our Border Patrol agents as they built their own 
night vision surveillance vehicle by literally duck-taping 
surplus night vision goggles they got from the Department of 
Defense (DOD) to a pole in the back of a pickup truck.
    I know that even though officers at ports of entry (POEs) 
are the ones that are seizing the majority of the fentanyl and 
other opioids, they are still understaffed by CBP's own 
guidelines. I know our immigration court judges face a 
tremendous backlog.
    I also know that while, overall, illegal border crossings 
are at their lowest level in 30-plus years following a decade-
long trend, for the past few years these agents and officers 
have been facing an increasing number of immigrant families 
trying to cross the border.
    There are a lot of different proposals for dealing with 
these families, but I think there is one thing we can all agree 
on, on a bipartisan basis, that we cannot lose sight that they 
are families and that they need to be dealt with as families. 
No one should be separating children from their parents.
    Beyond that, this is a complex problem, and my Chairman 
likes to constantly say we need to get the facts. I think any 
action on legislation at this point is premature because we do 
not have all the facts. Let us face it. If this were easy, we 
would have gotten this done a long time ago.
    I want to talk about and focus on the Flores decision 
today, that it does not allow the Department of Homeland 
Security (DHS) to detain families for long enough.
    I will say this unequivocally: We do not have enough facts 
to even consider indefinite detention of families--even if it 
were the right thing to do, which I do not think it is. We do 
not know enough. We do not know what it would cost. We do not 
know how many beds would be needed. We do not know how long the 
average detention would be. There is simply not enough 
information to consider indefinite detention.
    We have learned that Flores is not the only thing standing 
in the way. We have learned there are not enough detention 
facilities. It would be incredibly expensive to add more. 
According to the briefings we received, ICE would need an 
additional 15,000 beds just to house the immigrant families for 
30 days, at a cost of over $1.3 billion per year. This does not 
include the cost of additional personnel or the cost of 
construction. Frankly, it takes an average, a median of 128 
days to process an asylum case in detention. If that is even 
close to how long those families remain in detention, that $1.3 
billion only represents a fraction of the cost that we would 
actually pay.
    We also know that it costs $320 a day per person to keep a 
family unit detained. It only costs $8.50 to monitor them 
electronically. If both programs, or some other alternative 
results in families showing up for their immigration hearing, 
let us just say there are a lot of other border security needs 
we could be spending that money on.
    As a former prosecutor, I understand the balance we need to 
strike. This is all about securing appearance at court and, 
when people appear at court, being efficient and ready for 
deportation if that is the decision of the court.
    If you look at the facts around this issue, there may have 
been some electronic monitoring projects that were abandoned. 
But there is no reason to believe they do not work. The 
majority of people that are arrested for crimes in the United 
States of America are released pending their appearance at 
court.
    I have a great deal of experience with this. When I was the 
Jackson County prosecutor, we were under a Federal court order 
about how many people we could have in our jail. Every day I 
had to make a decision as to who we let out of jail and who we 
kept in jail. I guarantee you, we spent a lot of time on 
figuring out how we monitored those people that got out and how 
we secured their appearance.
    We know how to secure people's appearance at court. There 
is technology and there is oversight, and both of them are less 
expensive than building billions of dollars of beds to hold 
families indefinitely because our system is so inefficient.
    How effective is the monitoring? It is very effective in 
this country. How efficient is the system? Our system on asylum 
determination and removal could not be more inefficient. We 
should be starting with a bill that requires electronic 
records. Do you know if they have to do a hearing in Texas and 
the file is in California, they have to Federal Express (FedEx) 
the file? No system in this country is still all paper. Except 
this one.
    It is absolutely unbelievable to me that we are this 
inefficient, and we have been securing people's appearances at 
hearings, but the last hearing, when asylum is determined, for 
some reason after they have determined they do not get asylum, 
we are not monitoring them anymore. We need to be prepared at 
that last hearing. We need to have preparations and the people 
coming need to know that if the case goes against them on 
asylum, they are going to be deported immediately.
    It is about efficiencies in the system. It is not about 
imprisoning families indefinitely in this country.
    I think what we have to do is we have to deal with the 
shortage of immigration judges; we have to deal with the 
inefficiency in the system and how long it is taking to have 
these claims heard. That does not mean we should short-change 
people on their claims. We should give them adequate 
opportunity to have their claims heard. But the fact that we 
are willing to build more beds, but we are not willing to even 
hire the number of judges that have been funded? We do not even 
have enough judges now to even fill the number of judges we 
have given the Department of Justice for asylum claim 
determination.
    We are putting the cart before the horse. We are defaulting 
to the most expensive and nonsensical way to secure appearance 
when there are all kinds of ways in this country that we can 
secure appearance and make this system more efficient. I stand 
ready and willing to work with the Chairman of this Committee 
and any Republican making sure that we secure people's 
appearance at court. But we do not have to separate their 
families, and we do not have to--for the first time in our 
country's history--go on a building program of family prisons. 
That is not the right answer.
    I look forward to the witnesses' testimony and discussion 
about these issues as we move forward.
    Chairman Johnson. Thank you, Senator McCaskill. The good 
news is there are an awful lot of things we agree on right 
there, and that is how we will try and come up with some kind 
of solution here, those areas of agreement.
    I would be remiss if I did not point out the fact that we 
have a new member, Senator Jon Kyl from Arizona, who obviously 
on this issue, you are sort of the tip of the spear in terms of 
this problem. I really want to welcome you to the Committee, 
and I look forward to your valuable input throughout all of our 
issues, but particularly this one here today, and I appreciate 
you appearing here today.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Albence. I do.
    Mr. Perez. I do.
    Mr. Edlow. I do.
    Ms. Gambler. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Matthew Albence. Mr. Albence is the 
Executive Associate Director for Enforcement and Removal 
Operations (ERO) and the senior official performing the duties 
of the Deputy Director at Immigration and Customs Enforcement. 
Mr. Albence has over 24 years of Federal law enforcement 
experience with Immigration and Customs Enforcement, 
Immigration and Naturalization Service (INS), and the 
Transportation Security Administration (TSA). Mr. Albence.

    TESTIMONY OF MATTHEW T. ALBENCE,\1\ EXECUTIVE ASSOCIATE 
   DIRECTOR, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Albence. Chairman Johnson, Ranking Member McCaskill, 
and distinguished Members of the Committee, thank you for the 
opportunity for the opportunity to appear before you today to 
discuss the impact of the Flores Settlement Agreement on U.S. 
Immigration and Customs Enforcement's critical mission of 
protecting the homeland, securing the border, and ensuring the 
integrity of our Nation's immigration system.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Alebence appears in the Appendix 
on page 55.
---------------------------------------------------------------------------
    Our Nation's immigration laws are extremely complex and, in 
many cases, outdated and full of loopholes. Moreover, the 
immigration laws have been increasingly subject to litigation 
before the Federal courts, which has resulted in numerous court 
decisions that have made it increasingly difficult for ICE to 
carry out its mission. The current legal landscape often makes 
it difficult for people to understand all that the dedicated, 
courageous, professional officers, agents, attorneys, and 
support staff of ICE do to protect the people of this great 
Nation. To ensure the national security and public safety of 
the United States, our ICE personnel faithfully execute the 
immigration laws enacted by Congress, which may include 
enforcement action against any alien encountered in the course 
of their duties who is present in the United States in 
violation of immigration law.
    Since the initial surge at the Southwest Border in fiscal 
year (FY) 2014, there has been a significant increase in the 
arrival of both family units and unaccompanied alien children 
at the Southern Border, a trend which continues despite the 
Administration's enhanced enforcement efforts. Thus far in 
fiscal year 2018, as of the end of August, approximately 53,000 
UACs and 135,000 members of alleged family units have been 
apprehended at the Southern Border or deemed inadmissible at 
ports of entry, a marked increase from fiscal year 2017.
    Most of these family units and UACs are nationals of the 
Central American countries of El Salvador, Guatemala, and 
Honduras. Pursuant to the Trafficking Victims Protection 
Reauthorization Act of 2008, UACs from countries other than 
Canada and Mexico may not be permitted to withdraw their 
applications for admission, further encumbering the already 
overburdened immigration courts. With an immigration court 
backlog of over 700,000 cases on the non-detained docket alone, 
it takes years for many of these cases to work their way 
through the immigration court system, and few of those who 
receive final orders are ever actually returned to their 
country of origin. In fact, only approximately 3 percent of 
UACs from Honduras, El Salvador, or Guatemala encountered at 
the Southwest Border in fiscal year 2014 had yet to be returned 
or removed by the end of fiscal year 2017.
    One of the most significant impediments to the fair and 
effective enforcement of our immigration laws for family units 
and UACs is the Flores Settlement Agreement. Since it was 
executed in 1997, the Flores Settlement Agreement, which was 
intended to address the detention and release of unaccompanied 
minors, has spawned over 20 years of litigation regarding its 
interpretation and scope and has generated multiple court 
decisions resulting in expansive judicial interpretations of 
the original agreement in ways that have severely limited the 
government's ability to detain and remove UACs as well as 
family units.
    Pursuant to court decisions interpreting the FSA, DHS can 
generally only detain alien minors accompanied by a family 
member in a family residential center for approximately 20 
days, and the TVPRA generally requires that DHS transfer any 
UAC to the Department of Health and Human Services within 72 
hours. However, when these UACs are released by HHS or family 
units are released from DHS custody, many fail to appear for 
court hearings and actively ignore lawful removal orders issued 
against them. Notably, for family units encountered at the 
Southwest Border in fiscal year 2014, as of the end of fiscal 
year 2017 44 percent of those who remained in the United States 
were subject to a final removal order, of which 53 percent were 
issued in absentia. With respect to UACs, between the beginning 
of fiscal year 2016 and the end of June in fiscal year 2018, 
nearly 19,000 UACs were ordered removed in absentia--an average 
of approximately 568 UACs per month.
    This issue has not been effectively mitigated by the use of 
Alternatives to Detention (ATD), which has proved to be 
substantially less effective and cost-efficient in securing 
removals than detention. While the ATD program averages 75,000 
participants, in fiscal year 2017 only 2,430 of those who were 
enrolled in the program were removed from the country. This 
accounts for only 1 percent of the 226,119 removals conducted 
by ICE during that time. Aliens released on ATD have their 
cases heard on the non-detained immigration court dockets, 
where cases may linger for years before being resolved. Thus, 
while the cost of detention per day is higher than the cost of 
ATD per day, because those enrolled in the ATD program often 
stay enrolled for several years or more, while those subject to 
detention have an average length of stay of approximately 40 
days, the costs of ATD outweighs the costs of detention in many 
cases. Nor are the costs of ATD any more justified by analyzing 
them on a per removal basis. To illustrate, in fiscal year 
2014, ICE spent $91 million on ATD, which resulted in 2,157 
removals; by fiscal year 2017, ICE spending on ATD had more 
than doubled to $183 million but only resulted in 2,430 
removals of aliens on ATD--an increase of only 273 removals for 
the additional $92 million investment and an average cost of 
$75,360 per removal. Had this funding been utilized for 
detention, based on fiscal year 2017 averages, ICE could have 
removed almost 10 times the number of aliens as it did via ATD.
    Moreover, because family units released from custody and 
placed on ATD abscond at rates significantly higher than non-
family unit participants--many family units must be apprehended 
by ICE while at large. Such at-large apprehensions present a 
danger to ICE officers, who are the victims of assaults in the 
line of duty at alarmingly increasing rates. Specifically, in 
fiscal year 2018 through July 31, the absconder rate for family 
units on ATD was 27.7 percent compared to 16.4 percent for non-
family unit participants. Most of these aliens remain in the 
country, contributing to the more than 564,000 fugitive aliens 
on ICE's docket.
    Unfortunately, by requiring the release of family units 
before the conclusion of immigration proceedings, seemingly 
well-intentioned court rulings, like those related to the FSA, 
and legislation like the TVPRA in its current form create 
loopholes that are exploited by transnational criminal 
organizations (TCOs) and human smugglers. These same loopholes 
encourage parents to send their children on the dangerous 
journey north and further incentivizes illegal immigration. As 
the record numbers indicate, these loopholes have created an 
enormous pull factor.
    To address these issues, the following legislative changes 
are needed:
    Terminate the FSA and clarify the government's detention 
authority with respect to alien minors, including minors 
detained as part of a family;
    Amend the TVPRA to provide for the prompt repatriation of 
any UACs who are not victims of human trafficking and who do 
not express a fear of return to their home country, and provide 
for similar treatment of all UACs from both contiguous or 
noncontiguous countries to ensure they are swiftly and safely 
returned to their countries of origin;
    Amend the definition of ``special immigrant juvenile'' to 
require that the applicant demonstrate that reunification with 
both parents is not viable due to abuse, neglect, or 
abandonment, and that the applicant is a victim of human 
trafficking. The current legal requirement is simply not 
operationally viable;
    Address the credible fear standard--a threshold standard 
for those subjected to expedited removal to be able to pursue 
asylum before the immigration courts. The current standard has 
proved to be ineffective in screening out those with fraudulent 
or frivolous claims, and it thus creates a pull factor and 
places a strain on the system that inhibits the government's 
ability to timely address meritorious asylum claims while 
allowing those without valid claims to remain in the United 
States.
    Thank you again for the opportunity to appear before you 
today and for your continued support of ICE and its essential 
law enforcement mission. We continue to respond to the trend of 
family units and UACs who are apprehended while illegally 
crossing into the United States and to address this 
humanitarian and border security issue in a manner that is 
comprehensive, coordinated, and humane.
    Though DHS and ICE are continuing to examine these issues, 
ongoing litigation and recent court decisions require a 
permanent fix from Congress to provide operational clarity for 
officers in the field and to create a lasting solution that 
will secure the border. Congress must act now to eliminate the 
loopholes that create an incentive for new illegal immigration 
and provide ICE with the lawful authority and requisite funding 
needed to ensure that families can be detained together 
throughout the course of their immigration proceedings. Most 
family units claiming to have a fear of returning to their home 
countries are not ultimately granted asylum or any other relief 
or protection by immigration judges, and it is imperative that 
ICE can ensure that when such aliens are ordered removed from 
the United States, they are actually removed pursuant to the 
law.
    I would be pleased to answer your questions.
    Chairman Johnson. Thank you, Mr. Albence.
    Our next witness is Robert Perez. Mr. Perez is the Acting 
Deputy Commissioner with Customs and Border Protection. Mr. 
Perez started his career with the U.S. Customs Service in 1992 
as a Customs Inspector and has served in a variety of 
operational leadership positions within the Customs Service and 
Customs and Border Protection. Mr. Perez.

 TESTIMONY OF ROBERT E. PEREZ,\1\ ACTING DEPUTY COMMISSIONER, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Perez. Chairman Johnson, Ranking Member McCaskill, and 
distinguished Members of the Committee, it is my honor to 
appear before you today on behalf of U.S. Customs and Border 
Protection.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Perez appears in the Appendix on 
page 60.
---------------------------------------------------------------------------
    Every day the men and women of CBP facilitate legitimate 
travel, screening more than 1 million international passengers 
and pedestrians. Every day we process an average of $6.5 
billion worth of imported goods. Every day CBP seizes nearly 
6,000 pounds of narcotics and arrests 21 wanted criminals. 
Every day we protect our borders from terrorists, identifying 
more than 1,600 individuals with suspected national security 
concerns. Every day we guard our Nation's food supply, 
discovering over 350 pests and more than 4,300 materials for 
quarantine at our ports of entry. Every day CBP's employees 
work to make our Nation safer and our economy more competitive.
    CBP has a vast and complex mission that affects the lives 
of every American every day. I am honored to represent the 
hardworking men and women of CBP whose work is often difficult 
and dangerous and critical to our national security. I am also 
grateful for this opportunity to share what they are 
experiencing in the field. As the guardians of America's 
borders, the men and women of CBP are on the front lines of our 
country's migration crisis.
    While many factors do contribute to an individual's 
decision to attempt the dangerous journey to the United States, 
we cannot ignore the role our country's immigration laws plays 
in enticing illegal entry, subverting the rule of law, and 
encouraging manipulation of the system.
    There is a perception among some migrants that children and 
families are treated differently than individual adults, and 
our operations at times governed by the laws and judicial 
interpretations resulting in legal loopholes do not dispute 
this perception. As a result, we have seen an alarming spike in 
the number of family units we encounter.
    Last month, the number of family unit aliens apprehended in 
our border or deemed inadmissible at our ports of entry 
increased by 38 percent, 3,500 more than July of this year and 
the highest number on record for the month of August. No matter 
how well intentioned, these laws and policies--including the 
Flores Settlement Agreement and the Trafficking Victims 
Protection Reauthorization Act of 2008, have an operational 
impact on CBP's ability to fulfill its mission and uphold the 
rule of law.
    For example, the Flores Settlement Agreement limits the 
government's ability to detain family units through their 
immigration proceedings. This means that adults who arrive in 
this country alone are treated differently than adults who 
arrive with a child. Given the timeframe associated with the 
immigration process, that means that more times than not, 
families are released from custody.
    This has created a business model for smugglers that at 
times places children into the hands of adult strangers so they 
can pose as families with the hope of being released from 
immigration custody once they cross the border.
    There are similar unintended consequences associated with 
the TVPRA. In order to comply with the TVPRA, CBP prioritizes 
unaccompanied alien children for processing before transferring 
them to the custody of the U.S. Department of Health and Human 
Services. However, increases in apprehensions severely limit 
HHS' ability to quickly place unaccompanied alien children with 
adequate sponsors or place them in long-term shelters.
    In addition, elements of the TVPRA encourage trafficking 
organizations to smuggle unaccompanied alien children into the 
United States, knowing they will eventually be released to 
sponsors.
    Ultimately, enforcement of our immigration laws is the 
foundation of a secure border and a secure Nation. At times, 
well-intentioned actions have had unintended negative 
consequences on the immigration system as a whole. DHS leaders, 
including CBP, have worked closely with Members of Congress to 
address these immigration loopholes that affect our national 
security. I look forward to continuing our work with the 
Committee toward this goal.
    Thank you for the opportunity to appear before you today, 
and I look forward to your questions.
    Chairman Johnson. Thank you, Mr. Perez.
    Our next witness is Joseph Edlow. Mr. Edlow is the Acting 
Deputy Assistant Attorney General at the Department of Justice. 
Mr. Edlow serves in the Office of Legal Policy working on a 
variety of issues, including immigration. Mr. Edlow served for 
6 years as an Assistant Chief Counsel at Immigration and 
Customs Enforcement. Following that he worked for the House 
Judiciary Committee. Mr. Edlow.

   TESTIMONY OF JOSEPH B. EDLOW,\1\ ACTING DEPUTY ASSISTANT 
 ATTORNEY GENERAL, OFFICE OF LEGAL POLICY, U.S. DEPARTMENT OF 
                            JUSTICE

    Mr. Edlow. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Edlow appears in the Appendix on 
page 65.
---------------------------------------------------------------------------
    Chairman Johnson, Ranking Member McCaskill, and other 
distinguished Members of the Committee, thank you for the 
opportunity to speak with you today regarding the Department of 
Justice's position on the Flores Settlement Agreement.
    The Flores Settlement Agreement was reached in 1997 after 
12 years of litigation. The agreement set nationwide procedures 
and conditions for the care, custody, and release of 
unaccompanied minors, including to whom these minors may be 
released. At the time this agreement served as the framework 
for handling immigration matters related to unaccompanied 
minors. The FSA also served as the basis for the William 
Wilberforce Trafficking Victims Protection Reauthorization Act 
of 2008, which, like the FSA, does not address accompanied 
aliens.
    The agreement remained in effect through the dissolution of 
the INS and the passage of the Homeland Security Act, which 
formally created the Department of Homeland Security, and 
transferred responsibilities for care and custody of 
unaccompanied alien minors to Health and Human Services. It was 
interpreted several times since 1997, including in 2015 when 
the U.S. District Court for the Central District of California 
found that the agreement was applicable to all alien minors 
without legal status, including those encountered with a parent 
or guardian. Based on this interpretation, the court, 
therefore, explained that the FSA required that accompanied 
minors be transferred to a licensed facility as expeditiously 
as possible. The previous Administration unsuccessfully 
appealed these rulings, and the courts were warned in 2015 that 
this expansion of the agreement could lead to the separation of 
accompanied children from their parents in order to comply with 
the new interpretation.
    After the initial entry of the agreement, Congress passed 
legislation which the government argued largely superseded the 
agreement, including the Homeland Security Act of 2002 and the 
TVPRA. However, regardless of the efforts by previous 
Administrations, the court found that these statutes did not 
supersede the agreement.
    On June 21 of this year, pursuant to an Executive Order 
(EO), the Department of Justice requested a modification of the 
agreement to permit DHS to detain alien families together 
throughout immigration proceedings, which was ultimately denied 
by the district court.
    Despite the agreement's requirement that a child must be 
transferred from a secure unlicensed ICE or CBP facility as 
expeditiously as possible, it is generally legally and 
practically impossible to complete immigration proceedings in 
the 20 days that have typically been used as a guidepost. The 
pending immigration court caseload increased by nearly 470,000 
cases, or 350 percent, between 2008 and 2017, in part due to 
surges in illegal immigration which accompanied changes in 
immigration policies and reinterpretations of prior law.
    Nevertheless, the Executive Office for Immigration Review 
(EOIR), has taken steps to address the increased caseload, 
including by hiring more immigration judges and moving forward 
with a long overdue electronic filing and case management 
modernization effort.
    The Department of Justice appreciates the opportunity to 
work with the Department of Homeland Security, the Department 
of Health and Human Services, and Congress to address these 
challenges and improve our immigration system. The outdated 
Flores Settlement Agreement constitutes a roadblock to 
solutions for keeping families together once encountered at the 
border. The Department believes that the best path forward is 
through legislation aimed at terminating the agreement, 
returning to the rule of law, and enforcing our Nation's 
immigration laws. Additionally, DHS and HHS' proposed 
regulations will, in the absence of legislation, ultimately 
serve the best interests of all alien minors and their 
families.
    Thank you for this opportunity to speak with you today, and 
I look forward to your questions.
    Chairman Johnson. Thank you, Mr. Edlow.
    Our final witness is Rebecca Gambler. Ms. Gambler is the 
Director for Homeland Security and Justice with the Government 
Accountability Office. Ms. Gambler leads GAO's work on border 
security, immigration, and election issues. Ms. Gambler.

 TESTIMONY OF REBECCA GAMBLER,\1\ DIRECTOR, HOMELAND SECURITY 
       AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good morning, Chairman Johnson, Ranking Member 
McCaskill, and members of the Committee. Thank you for the 
opportunity to appear today to discuss GAO's work on the 
immigration courts and the Alternatives to Detention program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Gambler appears in the Appendix 
on page 70.
---------------------------------------------------------------------------
    Within the Department of Justice, the Executive Office for 
Immigration Review, is responsible for conducting immigration 
court proceedings to uniformly administer and interpret U.S. 
immigration laws and regulations.
    In June 2017, we reported on EOIR's management of the 
immigration courts. As part of that report, we took a look at 
EOIR's caseload. From fiscal year 2006 through 2015, EOIR's 
caseload grew 44 percent, from approximately 517,000 cases in 
fiscal year 2006 to about 747,000 cases in fiscal year 2015. 
This increase was attributable primarily to an increase in the 
case backlog. From fiscal years 2006 through 2015, the 
immigration courts' backlog more than doubled, reaching a 
backlog of about 437,000 cases pending in fiscal year 2015.
    We also reported on how EOIR was overseeing and managing 
immigration court operations, and we identified a number of 
challenges related to workforce planning and hiring, among 
other things.
    For example, during the time of our review, EOIR estimated 
its staffing needs using an informal approach that did not 
account for long-term staffing needs or reflect EOIR's 
performance goals. We recommended that EOIR develop and 
implement a strategic workforce plan.
    Moreover, during our review we found that EOIR did not have 
efficient practices for hiring new immigration judges, which 
contributed to staffing shortfalls. Our analysis showed that 
from February 2014 through August 2016, EOIR took an average of 
647 days to hire an immigration judge. We recommended that EOIR 
assess its immigration judge hiring process and implement 
actions identified through such an assessment.
    EOIR generally agreed with our recommendations in these 
areas and is taking action toward addressing them by, for 
example, working on a strategic plan that includes human 
capital planning and working to streamline the hiring process. 
We will continue to monitor EOIR's progress in responding to 
our recommendations to address the agency's longstanding 
challenges.
    With regard to the Alternatives to Detention program, in 
November 2014 we reported on how U.S. Immigration and Customs 
Enforcement managed the program. ICE implemented the program in 
2004 to be a cost-effective alternative to detention that uses 
case management and electronic monitoring to ensure foreign 
nationals released into the community comply with their release 
conditions, including requirements to appear at immigration 
court hearings and to comply with final orders of removal from 
the country. At the time of our review, the program was 
comprised of two components--one managed primarily by a 
certainly and another managed by ICE.
    The number of foreign nationals who participated in the 
Alternatives to Detention program increased from about 32,000 
in fiscal year 2011 to over 40,000 in fiscal year 2013. This 
increase was attributable to increases in enrollment and the 
average length of time foreign nationals spent in the program.
    We also looked at the cost of the Alternatives to Detention 
program. We found that the average daily cost of the program 
per person was $10.55 in fiscal year 2013 while the average 
daily cost of detention per person was $158. While our analysis 
showed that the average daily cost to the program was 
significantly less than the average daily cost of detention, 
the length of immigration proceedings affected the cost-
effectiveness of the Alternatives to Detention program over 
time.
    Further, at the time of our report, ICE had two performance 
measures to assess the program's effectiveness: one, compliance 
with court appearance requirements; and, two, removals from the 
United States.
    For the first measure, for the component of the 
Alternatives to Detention program managed by the contractor, 
data from fiscal years 2011 through 2013 showed that over 99 
percent of foreign nationals with a scheduled court hearing 
appeared at their scheduled court hearings while participating 
in the program.
    For the second measure, the program met its goals for the 
number of removals in fiscal years 2012 and 2013.
    However, we identified limitations in data collection that 
hindered ICE's ability to assess overall program performance in 
part because ICE did not consistently collect performance data 
for both components of the program. We recommended that ICE 
strengthen its data collection, and ICE took action to 
implement that recommendation.
    This concludes my prepared statement, and I am happy to 
answer any questions members may have.
    Chairman Johnson. Thank you, Ms. Gambler.
    Again, first of all, I appreciate the attendance here by my 
colleagues, and so out of respect for their time, I will defer 
my questions to the end. I will turn to Senator McCaskill.
    Senator McCaskill. Yes, I just have a couple. Somebody 
correct me if I am wrong. When folks are monitored, the 
majority show up. Correct?
    Mr. Albence. ATD has been proven to be fairly effective at 
getting people to appear for appearances with ICE and appear 
for some court hearings, yes.
    Senator McCaskill. OK. After asylum has been denied and a 
removal order has been entered, the majority of them are no 
longer monitored. Correct?
    Mr. Albence. Many of them are not monitored up to the point 
of the removal order.
    Senator McCaskill. Why?
    Mr. Albence. Well, first of all, there is cost. It would be 
expensive to monitor them throughout the pendency as some of 
these hearings go for 4, 5, 6, or 7 years. Many individuals 
that get these removal orders actually get them in absentia 
because they have absconded.
    Senator McCaskill. But here is my point, Mr. Albence. What 
I am trying to say is if we know monitoring gets them to court 
and if the problem is after they know they are not going to get 
asylum, they no longer show up, it seems to me that we need to 
focus monitoring at that place.
    Now, let me continue----
    Mr. Albence. But if I can answer that question, that is 
when those individuals will abscond, if they had a bracelet on, 
as we have seen, with many individuals now, especially these 
family units, they will cut those bracelets.
    Senator McCaskill. But the majority of them are not even 
getting those bracelets once they have been denied asylum. The 
vast majority are not even getting bracelets. Nobody is paying 
attention to them.
    Mr. Albence. No, ma'am. We have a contractor that does a 
significant amount of work tracking these cases and monitoring 
them. As GAO just indicated, our metrics are very good with 
regard to how we track these cases, how we are able to monitor 
them.
    Senator McCaskill. I think you do, but not after the asylum 
has been denied. I think that is the problem.
    Let me go further with this. Mr. Edlow, is there any reason 
in the law that you could not organize asylum hearings around 
country of origin?
    Mr. Edlow. I do not know that that has ever been 
considered. Certainly the Department and EOIR takes every case 
on a case-by-case basis, and the immigration judge makes that 
adjudication, that determination on a case-by-case basis. I do 
not know, given all the factors that would be in play there, 
that we would be able to organize it around the same country.
    Senator McCaskill. Well, it seems to me that the vast 
majority of these cases are coming from a handful of countries. 
It seems to me that it would not be beyond reasonable to try to 
organize these courts hearings around countries, especially if 
you had enough judges to do it earlier than 2 or 3 years. Why 
could you not monitor people until that hearing, and then when 
they show at that hearing, then they are deported right then?
    Mr. Albence. Well, they would have a 30-day appeal period 
during which time they could appeal the ruling of the judge.
    Senator McCaskill. And they could be monitored.
    Mr. Albence. They could be monitored, but, again, our 
experience has shown once--individuals will comply with their 
reporting requirements up until the point where there is no 
benefit of them doing so. Once they no longer are going to 
obtain that benefit or have a denied asylum claim, that is when 
individuals will generally abscond. They will comply up until 
the point where the benefit of complying is no longer there.
    Senator McCaskill. But I guess what I am saying is, it 
reminds me of how we got people to court when they were charged 
with a crime. We would never dream of--after the jury had found 
them guilty and they were sentenced, we would never dream of 
deciding that would be the least intensive time of monitoring. 
The data shows that there is not as intensive monitoring at 
that point in the process as there is for their initial 
appearance.
    Mr. Albence. Again, we are experiencing a significant rate 
of absconders among the family units. Nearly three in 10 family 
units are cutting off their ankle bracelets at the beginning of 
the process, when they have been released from our custody 
within days or weeks. They are not even going to get to that 
point where they would get the final order of removal.
    Senator McCaskill. Do we have the resources, when they 
cutoff those bracelets, to pick them up?
    Mr. Albence. Absolutely not. ICE has not been given 
resources to go out and effectuate these at-large arrests in 
many years. I have 129 fugitive operations teams within ERO, 
and most of their time is spent going after criminal aliens and 
public safety threats. I simply do not have the resources to 
get people once they are at-large in the communities.
    Senator McCaskill. Well, it seems to me that this is a 
court appearance problem, and we ought to figure out a way to 
make court appearances more likely. Believe me, when you are 
facing prison, you do not want to go to court. But we have a 
very low rate of absconding in the criminal justice system 
compared to this system. I think we can learn lessons there. 
For one, you hire enough judges to handle the caseload.
    Mr. Edlow, can you explain why you can only hire 100 judges 
a year?
    Mr. Edlow. Well, since the beginning of this 
Administration, we have hired over 128 judges.
    Senator McCaskill. Why can't you hire more?
    Mr. Edlow. First, it took a while to get the authorization. 
Now I realize that, based on what you said, we do have the 
authorization, and I believe Mr. McHenry spoke to this at the 
last hearing. It is not just a matter of getting the judges. 
The judges are important, but it is having the facilities for 
those judges. It is having the courtrooms. It is having 
appropriations so that we can have the appropriate staff, the 
video-teleconference system if that is the way hearings are 
going to be handled. Frankly, it is also appropriations to 
ensure that ICE is able to provide a trial attorney to those 
hearings. The Department of Homeland Security is a party to 
these hearings, and we need to make sure that they are 
represented there as well.
    Senator McCaskill. But would this not be a better 
investment than building family prisons? Would that not be a 
better investment of hiring personnel and--I guarantee you, 
there are all kinds of places. I have seen hearings in amazing 
places, especially when they are done with video. What it seems 
like to me. We are throwing up road blocks when the real 
problem is we have not invested in a system in terms of 
adequate personnel to actually handle these claims. The longer 
this goes on, the more likely it is they abscond. I do not 
think that anybody will argue with me about that, that the 
longer this goes on, the less likely we are going to be 
monitoring and knowing where people are that are supposed to go 
to court. This is a process that people need to comply with. It 
is the law.
    I think we need from DOJ exactly what your excuses are that 
you cannot--and give us the numbers, because people are 
considering building family prisons, and I know how expensive 
that is. That is contractors as far as the eye can see if we 
are going to go about building family prisons in this country 
as a new policy initiative. I would much prefer to do the hard 
work of getting the resources in place for the infrastructure 
of a judicial system as it applies to immigration that could 
work in a timely way. It is outrageous that people are waiting 
6 and 7--or let me be more fair, 3 to 4 years for a hearing. No 
wonder we cannot keep track of everyone; 3 to 4 years is a long 
time.
    This is one of those issues that I think we need more input 
from Justice as to why if it is resources, I guarantee you we 
can get bipartisan support to get you more resources for this. 
Most of us would much rather spend the money on this than 
building family prisons.
    Thank you, Mr. Chairman.
    Chairman Johnson. I want to quick interject here because I 
need to help our hearing moving forward to really get clarity 
on the whole judicial process here. OK? This is how I 
understand it, and please correct me. I want you to really 
clarify this.
    You really have, first of all, two distinctions. You have 
the detained docket and the non-detained docket. Correct?
    Mr. Edlow. That is correct.
    Chairman Johnson. The detained docket has a priority given 
to it.
    Mr. Edlow. Well, we work with DHS to prioritize the 
detained docket.
    Chairman Johnson. But it is a dramatic difference in terms 
of the initial completion as well as any kind of appeals and 
everything else. The final adjudication occurs much quicker on 
the detained docket versus the non-detained.
    Mr. Edlow. That is correct, Mr. Chairman.
    Chairman Johnson. Is there not a big difference between our 
normal criminal justice system where people have addresses, 
they have family, they have ways of finding them, and a lot 
more resources, by the way, to track them down, versus the 
illegal population that necessarily do not have families, that 
it is actually pretty easy for them to cut their bracelets and 
just blend into society.
    Mr. Albence. That is correct. I am not aware of any 
criminal justice system in this country that has a docket size 
over 700,000.
    Chairman Johnson. Again, we are just overwhelmed by the 
numbers, and there is a difference between the illegal 
immigration population versus our normal criminal justice 
system in terms of being able to track them down, the resources 
to track them down if they were to abscond from an alternate 
detention.
    Mr. Albence. There is a huge difference with regard to 
that. There is also a huge difference with regard to our 
ability to locate these individuals. Individuals that are here 
in the country lawfully will have numeric identifiers that we 
can utilize to locate them. They have utility bills. They have 
Social Security numbers. They have driver's license numbers. 
That is how we conduct investigations to locate people. When 
you have people that are just here illegally in the country and 
there is no investigative footprint, our ability to try to 
identify those people and locate where they are is very 
limited, very time-consuming, and very resource-intensive.
    Chairman Johnson. My final point or final question is--
because I have seen so many numbers, and that is why I am 
trying to simplify this as best I can in a very complex 
situation. In terms of the average length to final deportation, 
where we can actually remove them, where there is no longer 
appeals--see, that is the part of the problem, to, they get 
what they call a final order, but then they can appeal it and 
that is when they abscond. How long is that, on average, on the 
detained docket versus the non-detained docket? Anybody have a 
good number on that. Mr. Edlow.
    Mr. Edlow. Mr. Chairman, first I would just note that if 
they are on the detained docket, they probably cannot abscond 
since they are in detention, so there is no lag time in that. 
But certainly it is taking an average right now to complete a 
non-detained case of 752 days. Then after that, I would have to 
defer to the Department of Homeland Security, after that period 
of time, how long it would take to get the travel documents and 
effectuate the removal.
    Chairman Johnson. That is less than 2 years. I have seen 
much longer figures, kind of depending on the court, too. We 
have seen it going 4 to 5 years.
    Mr. Edlow. Well, certainly, the dockets vary. The 
crowdedness of each docket would vary based on the location of 
the court and what that court is typically handling.
    Chairman Johnson. What about on the detained docket? What 
is the length of time on average? I have seen, initial 
determinations like 41 days. That is up quite a bit.
    Mr. Edlow. That is exactly right.
    Chairman Johnson. What about to the final point of removal?
    Mr. Edlow. I can just tell you where we are in terms of 
completing the case, and then I would have to defer to ICE on 
that, but 40 days is correct.
    Chairman Johnson. Mr. Albence.
    Mr. Albence. Generally, removal to Mexico or one of these 
Northern Triangle countries is quite rapid. We work very 
closely with the consular officials in these countries. We also 
actually have them onsite in many of our facilities. We can get 
travel documents in many cases between 3 to 7 days. I will 
confirm what Mr. Edlow said, that our absconder rate for aliens 
in detention is zero.
    Chairman Johnson. Thank you. Well, magically my 7 minutes 
are still there, so I think I am getting close to it, so we 
will go to Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman.
    This is a really important hearing. It is a tough issue, 
really difficult issue, because we are balancing kids coming 
into our country who we all have compassion for with our 
immigration system, families coming in, infrastructure that is 
inadequate to deal with it, and we have talked about that 
today. With 700,000 pending cases, there is nothing like this, 
as Mr. Albence just said in the criminal justice system in this 
country certainly, 700,000 cases pending, and with regard to 
unaccompanied kids, I think it is about 70,000. Is that right? 
Mr. Edlow, do you know?
    Mr. Edlow. It is around 80,000, sir.
    Senator Portman. 80,000. Look, this is challenging. I got 
involved in this issue, as some of you know, a few years ago 
when we had eight individuals from Guatemala who were sent by 
HHS from detention, HHS care, to traffickers, actually the same 
traffickers who had brought them up from Guatemala as their 
sponsors. Those traffickers then took them to an egg farm in 
Ohio where they were exploited and put into a forced labor 
situation.
    I want to thank DOJ this morning because we just learned 
this morning that the seventh defendant in the Marion case pled 
guilty yesterday to trafficking charges. You all have been 
aggressive in going after these traffickers, and I appreciate 
that.
    But the problem is when these children come in and now when 
the families come in and the children are in HHS care, they 
then go out to these sponsors without adequate screening. That 
is certainly what our research has found over the last few 
years. We have a legislative initiative that some of us on this 
Committee--in fact, my two colleagues to the right, Senator 
Carper and Senator Lankford, are very involved in this--are 
going to be shortly introducing, which we think will really 
help to put somebody in charge, have some accountability, for 
two reasons: one, to ensure these kids are properly treated, 
that we do not send them out with traffickers; but, second, to 
get them to their court hearings and to ensure the immigration 
system is working.
    We learned that late last year there was a call that went 
out, a 30-day call that the Trump administration had initiated, 
which, frankly, was not done in the Obama Administration, so 
that is a positive step at least to have a call going to these 
sponsor families to say, ``What is going on? Where are the 
kids?'' Some of you have heard this number, that 1,500 kids are 
unaccounted for. We will have some new data we will release 
later today probably which shows that has not gotten much 
better, and a number of kids, a couple dozen, had left 
altogether, had runaway from their family.
    Part of the problem is the fact that we do not have this 
infrastructure in place to deal with it. Again, it is not easy 
to put it together, but it seems to me there are two things 
that we should all agree on. One is to deal with the push 
factors, particularly in the Northern Triangle countries, 
because if we continue to have this push to the United States, 
we are going to continue to have enormous challenges, 
regardless of what kind of infrastructure we put in place. 
Second, we need to ensure that we have more judges, more 
expedited proceedings. As was said by the Chairman and the 
Ranking Member, if you have these long wait periods, a couple 
years, it is far more likely you are going to have problems. We 
have seen this in all of the data as we compare the detained 
versus the non-detained individuals in going to court.
    A couple of questions, if I could, and, Ms. Gambler, you 
talked a little about this, the enormous backlog, the reasons 
for it. But, Mr. Edlow, you are with the Department of Justice, 
so tell us a little more about this. If we allow detention of 
family units together, what would that do to the detained 
docket?
    Mr. Edlow. Well, certainly, Senator, it would add 
additional cases to the detained docket. If we were not bound 
by the Flores Settlement Agreement, those cases could move 
forward on that docket as opposed to being released and placed 
in a non-detained docket.
    The Department would prioritize its resource and its judges 
to ensure that we continue to not have a backlog on the 
detained docket. We do not have a backlog now. We would not 
have a backlog then.
    The problem in speculating too much as to how it would 
ultimately look, perceptions matter. If there is a legislative 
change or a termination of Flores that would ultimately allow 
for the detention of family units together during their 
immigration court proceedings, that probably is going to cutoff 
one of the pull and push factors that you just alluded to 
before. That may affect apprehensions. I cannot speculate on 
whether that would, but certainly the Department would put the 
resources that it has and that it will continue to gain to 
ensure that we can hear those cases.
    I should note that the Department has been working already 
very closely with the Department of Homeland Security to 
prioritize family cases and to ensure that those cases can be 
expedited--not accelerated. We want to make sure that the 
process is there as Congress has intended, and we want to make 
sure that the law is being enforced evenly and fairly. But we 
want to make sure that these cases are heard quickly, and we 
can do that now, and we will continue to do that.
    Senator Portman. I think it is important to prioritize 
those cases for all the reasons you said, but we also have to 
prioritize all the cases. In other words, we need to bring the 
backlog down for everybody. Again, 700,000, you talked about 
the number of days, which is about 2 years on average even to 
get someone to court. You talked about the fact that there is 
an appeal process after that.
    Let me ask you this, and maybe this goes to the entire 
panel. Have you given us a number? How much would DHS and DOJ 
need to be able to substantially reduce that backlog, let us 
say, by half over a period of a couple of years? What resources 
would be required?
    Mr. Edlow. Senator, I would----
    Senator Portman. I would give this to DHS as well.
    Mr. Edlow. I would have to work with our team and come up 
with a number.
    Senator Portman. Would you do that?
    Mr. Edlow. Absolutely, Senator.
    Senator Portman. Because I think, that is sort of the 
question all of us are asking ultimately. One, how do you avoid 
the push factor and do more in Central America to avoid so many 
people coming here without documents and having this system 
that is going to be tough, as I said, no matter what? But then 
just dealing with the infrastructure, what kind of resources 
are required? Senator McCaskill said a lot of us, we want to 
put more funds into that than into other things. That may be 
true, because if you could, in fact, expedite these cases, it 
is much more likely they can be handled properly and that we 
are not going to lose people in the system, which is currently 
happening, and you are not going to have issues that we talked 
about earlier of HHS actually putting kids into dangerous 
situations with sponsors who there is no accountability for. By 
the way, that needs to be dealt with no matter what. I am not 
going to get into that in this hearing because that is a 
separate topic, but we have got to get somebody responsible and 
accountable.
    Mr. Albence. Sir, if I could add, in addition to adding the 
judges, ICE is in desperate need of attorneys to actually 
prosecute these cases.
    Senator Portman. Right.
    Mr. Albence. If you only front-load the judges, you are 
still going to have a bottleneck within ICE because we need the 
attorneys and the support staff within our legal department to 
help prosecute these cases.
    Senator Portman. On both sides.
    Mr. Albence. We would need, obviously, officers to manage 
these cases. But, in fact, the fiscal year 2018 appropriations 
bill that gave us some additional attorneys--I believe it was 
72--the appropriations language actually prohibited them from 
working on immigration cases. We have to be able to get the 
immigration attorneys----
    Senator Portman. Mr. Eldow and Mr. Albence, I would just 
ask--and I am sure the Chair would appreciate this, and the 
Ranking Member--just give us a number based on reducing the 
backlog by half within 2 years. What would that take?
    Chairman Johnson. Again, total resources specified, 
detailed out, everything you need. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
our witnesses for being here today.
    I have been listening to the testimony, and I am just 
trying to clarify in my mind some of the numbers that have been 
thrown around here, so if you could help me with that, I would 
appreciate it.
    Mr. Albence, in particular, you have talked about folks who 
are in alternative programs and then do not show up for cases, 
or once there is an adjudication, immediately leave. Yet I am 
looking at numbers here, so help me through this. It shows the 
data that families on ICE's main Alternative to Detention 
program attended 99.6 percent of their hearings in the first 
half of 2017, and ICE reports an overall success rate of 95.7. 
A study of the family case management program (FCMP), which is 
the high-touch caseworker-based alternative pilot for families, 
shows that 99 percent of families complied with court 
appearances and ICE appointments.
    It seems at least from this data, do appear for their court 
appointment 95 to 99 percent of the time. Is that accurate?
    Mr. Albence. Sure. It is accurate, but there are a lot of 
caveats to that. Many of these individuals, because the docket 
is so long, it is only measuring their compliance with one 
hearing or one court appointment, because they may have four or 
five resets or continuances that it does not measure. You are 
only tracking a small period of time. Over the long run, what 
we know is our absconder rates for family units in this year is 
28.4 percent. Last year it was 23 percent. In 2016 it was 31 
percent. In 2015 it was 25 percent. Those are hard, firm 
numbers.
    With regard to family case management, family case 
management was a well-intentioned program that, again, the goal 
was to ensure compliance with court hearings. Overall, its 
compliance rate was a little bit less than our normal program 
at a much higher expense, and ultimately only resulted in 15 
removals from the country at a cost of $1.16 million per 
removal. It was a very expensive program with no removals 
attached to it at the end.
    Senator Peters. This figure of 99 percent for the family 
case management program you said is flawed because it only has 
the first hearing?
    Mr. Albence. In some cases. I would have to look at FCMP. 
Many of those individuals, they probably never ever completed 
their case before the program was dropped because of the 
expense and inefficiency with actually removing people and 
getting the compliance with removal orders.
    Senator Peters. Well, we will have to do a deeper dive 
then, because these are the numbers that have been presented to 
me. And you talk about the measurement of the program is 
removals. Now, these are folks who went through a court process 
looking for asylum. Do you think perhaps they were successful 
because they had a good argument to make and a successful case? 
Should we be looking at facts related to folks who actually 
were here on legitimate reasons associated with asylum that we 
should not just look at removals as the standard measure of 
success or not?
    Mr. Albence. Well, again, ICE is in charge of immigration 
enforcement. Our goal is to enforce the laws and comply with 
the judge's order, whether that judge's order is the grant of 
asylum or whether that judge's order is removal. The vast 
majority of individuals who even though they surpass the 
credible fear threshold upon apprehension and their initial 
screening by Citizenship and Immigration Services (CIS), 
ultimately, many of them do not ever actually file for asylum. 
Even those that do file, I believe the approval rate is in the 
20-percent range. I do not have that exact number in front of 
me, but I believe it is in the 20-percent range. The vast 
majority of these people we are talking about are not people 
with successful asylum claims.
    Senator Peters. Certainly, with the detention docket or the 
detained docket, in 40 days we process folks and get them out. 
That is pretty quick. I agree with what I have heard from my 
colleagues earlier that we have to be able to have a process 
that moves that quickly for everybody by hiring judges, having 
the infrastructure in order to do it.
    But if I look at some of these costs associated with 
alternative programs as well, based on the significant 
reduction in cost that the GAO has identified, it would take 
1,229 days waiting for an adjudication in an alternative 
program before it was more expensive than the detained.
    Mr. Edlow, you mentioned the average of 752 days, so it 
seems alternative programs from just a cost-benefit analysis 
are significantly cheaper. But let us move the process along. 
That is not making that argument. I think we need to be moving 
this process along a lot quicker.
    But in my remaining time, I just want to mention something 
that I think is very important, and that is what our top 
priority in all of this should be, and that is the welfare and 
care of children who are in this process. A host of medical 
organizations, including the American Academy of Pediatrics 
(AAP), the American College of Emergency Physicians (ACEP), the 
American College of Physicians (ACP), the American Medical 
Association (AMA), the American Psychological Association 
(APA), and on and on, to name a few, have all concluded that 
there is irreparable physical and mental harm done to children 
who are placed in detention. Even brief stays in detention, 
according to these folks, can lead to psychological trauma and 
lasting mental health risks.
    My question to the panel is: In proposing rollbacks to the 
Flores Settlement Agreement, has DHS reviewed the extensive 
literature discussing the long-term health consequences that 
detention will have on children? Mr. Albence, do you want to 
start?
    Mr. Albence. The regulation writing process was very 
extensive. I was not personally involved in a whole lot of 
that, so I cannot speak to all of the things that were reviewed 
during the course of that process. What I can tell you is that 
the family residential centers (FRC) are humane.
    What we are looking to do with that regulation is not 
change the standards which we currently maintain. The purpose 
of the regulation is not to change the standards that we have, 
that currently exist. The purpose of the regulation is to bring 
us into compliance with the Flores Settlement Agreement, which 
was contemplated by the court, and that is the purpose of the 
regulation.
    Senator Peters. How long is too long, do you think, to 
detain a child in a detention facility?
    Mr. Albence. I am certainly not qualified to answer that 
question, sir.
    Senator Peters. Has your agency looked into that and 
thought about it and reviewed the literature associated with 
that?
    Mr. Albence. I do not know. I could find out and get back 
with you.
    Senator Peters. I would appreciate that.
    Would anyone else like to comment about the review of your 
organization as to the psychological impact on children are 
detained? Mr. Perez.
    Mr. Perez. Senator, I am not aware with respect to CBP's 
particular review of the findings in the report, but we could 
certainly get back to you on that. I would just echo my 
colleague's sentiment that if it is with respect to CBP's 
disposition, when it is that we do encounter children, their 
health and well-being is first and foremost on our mind. Even 
if it in our short-term care, we not only comply with all the 
standards that we have imposed on ourselves and others have, 
but nevertheless go above and beyond. The front line Border 
Patrol agents and CBP officers do absolutely everything we can 
to assure their well-being while in our custody.
    Senator Peters. Mr. Edlow.
    Mr. Edlow. Senator, thank you. The Department of Justice's 
role in this process is to enforce the laws that Congress has 
passed. Certainly, if Congress amends the law to take that into 
account, we will enforce those laws. But I cannot speak 
specifically on that. I am not able to speak specifically to 
the reports themselves.
    Senator Peters. Well, I would like to follow up, Mr. 
Chairman, with all of you to get a sense of what sort of 
analysis has been done by each of your agencies to take a look 
at this, and I am going to propose for the record, if I may, 
Mr. Chairman, a letter\1\ here signed by, I think, over 1,200 
professionals and health care officials who believe that any 
kind of detention, even short-term detention, can have 
significant impacts on children. Certainly, I would hope that 
this is something all of you would take a look at, and I think 
we have to find out who exactly is even considering this as 
these proposals come forward. From the testimony I have heard 
today, it does not sound like anybody is giving any kind of 
comprehensive, thoughtful analysis of this situation.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Peters appears in the Appendix 
on page 127.
---------------------------------------------------------------------------
    Thank you, Mr. Chairman.
    Chairman Johnson. Without objection, that will be entered 
into the record.
    By the way, while you were talking about asylum claims that 
have been granted, I do have a chart\2\ which I will enter in 
the record. We have staff making copies and distributing it. 
But it gives you the 10-year averages: 25 percent of asylum 
claims are granted, 28.2 percent were denied, 30.8 percent 
other closure rates, and that is abandonment, not adjudicated, 
other, or withdrawn; and finally, administrative closure rates 
16 percent. There are some trends involved in here, too. The 
actual denial rate has actually spiked up in the last couple of 
years. We will take a look at this.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 93.
---------------------------------------------------------------------------
    Again, that is just asylum. As Mr. Albence was talking 
about, some people do not claim asylum, and they get removal 
orders as well. There is a lot of information and a lot of 
data, and that is what I am trying to do, is trying to 
accumulate all of it so we can get the exact picture of what is 
pulling off.
    With that, it is Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. I thank all of you for your work and for 
what you are continuing to do to keep our Nation safe. We 
appreciate that very much. You are carrying out the law and 
what you have been asked to do, and there are a lot of families 
across the country that are incredibly grateful for the work 
that you do in that.
    I want to get a couple definitions here. The number has 
come up, over 90,000 family apprehensions. Is that 90,000 
individuals total or is that 90,000 families, but we do not 
know what the number is within that family? Let us do a 
clarification there.
    Mr. Perez. Thank you, Senator. Actually, for this fiscal 
year, CBP apprehensions, both at the ports of entry and between 
the ports of entry, through August is now over 130,000 family 
units, and that is actually individuals that make up----
    Senator Lankford. So 130,000 individuals that came as a 
family unit coming through?
    Mr. Perez. Yes, Senator.
    Senator Lankford. Do we know how many actual families that 
is? Does that represent 75,000 families or groups of 
individuals, or you just have a number that is broken down to 
130,000?
    Mr. Perez. It is more typically broken out in the manner in 
which I just mentioned, but we can get back to you on that, 
Senator.
    Senator Lankford. That is fine. How do you determine family 
relationship there? As you have already mentioned before in 
your prior testimony, there are adults that are coming across 
the border carrying a child with them or bringing a child with 
them so they can say they are a family unit. How are you 
determining who is a family unit and who is not?
    Mr. Perez. Thank you, Senator. We are using every resource 
at our disposal, so not only our biographic and biometric 
databases, our interviews with the actual families themselves. 
If they are not carrying documents, we will reach into the 
consulate contacts that we have, also our colleagues throughout 
the law enforcement community, and, again, leaning on the 
behavioral analysis and skills of our front-line agents and 
officers to make those determinations ultimately of whether or 
not the family unit is, in fact--or the parent who is just 
being claimed is, in fact, a valid one.
    Senator Lankford. Do you have to resort to Deoxyribonucleic 
acid (DNA) testing at times to be able to determine that?
    Mr. Perez. We do not do DNA testing at the border, sir.
    Senator Lankford. Is there an additional penalty for an 
adult bringing a child with them claiming to be a family 
member, but then you determine this is not actually a family 
members; this is them trying to be released in the country? Is 
there any additional consequence for that individual adult?
    Mr. Perez. Well, typically, yes, Senator. If we find that 
fraudulent claim being made, then we will refer that individual 
for potential prosecution as well as, of course, take great 
care, as I mentioned earlier, of the safety and well-being of 
the child.
    Senator Lankford. Because at that point that child is being 
trafficked or that child is being used by the adult for 
whatever purpose to be able to try to get across the border. 
Then we have to actually try to find their family.
    Mr. Perez. Those are the determinations that, again, 
uniquely case by case that are subsequently made and that are 
investigated. Whether or not it was a trafficking organization, 
that was simply trying to gain profit, as many of them will do 
in marketing themselves to these migrants to take this very 
dangerous journey, or whether or not it is a serious, more 
alarming case at times of human trafficking. Those are 
subsequently then investigated both by ourselves and our 
colleagues at ICE to make those determinations, and then, 
again, as you asked, determine what end state and/or 
disposition we will collectively have with the individual that 
is found to be perpetuating these illicit acts.
    Senator Lankford. OK. Thank you. Thank you for the ongoing 
work that you all are doing all the time in that for those kids 
and those families.
    We have talked about push and pull factors some today.
    Over the last 3 years, the U.S. Congress has allocated 
about $650 million in economic assistance for the Northern 
Triangle, for economic investment there to be able to increase 
jobs for anticorruption efforts, for criminal justice efforts 
to try to help reduce the crime rate. The murder rate has 
dropped some in the Northern Triangle. There has been some 
economic development that is there, but we have made tremendous 
investments of around $650 million a year each year into the 
Northern Triangle to be able to help them have a more stable 
environment that people are not having to flee.
    At the same time, I am concerned about the pull factor here 
because most of the children that are coming as unaccompanied 
minors and many of the individuals that are coming as family 
units are coming because there is a family member already here. 
Is it our policy currently, if there is a family member already 
present in the United States, even if they are not legally 
present in the United States, that unaccompanied minor can be 
placed with someone not legally present in the United States?
    Mr. Albence. Those determinations are made by HHS, but I 
can tell you that the policy of that agency is the immigration 
status of the sponsor is not relevant to their determination as 
to whether or not a child can be placed in that household, 
which from our data that we have seen just recently, you are 
looking at close to 80 percent of the people that are sponsors 
or household members within these residences are illegally here 
in the country.
    Senator Lankford. That has not always been so. If you go 
back 15 or 20 years ago, if someone came into the country 
illegally as a child, they were not placed in the home of 
someone who also did not have legal status in the United 
States. The sponsor had to be someone who had legal status or 
was a United States citizen, if you go back in time. My 
question is: Is that a reasonable standard to be able to have 
and to be able to go back to, that we do not have sponsors that 
do not have legal presence in the United States?
    Mr. Albence. You are getting me way out of my lane here, 
because that is really an HHS decision. I would not want to 
weigh on how they manage their resources.
    Senator Lankford. Mr. Perez, what effect do you think that 
would have on the pull factor?
    Mr. Perez. Thank you, Senator. I think from CBP's 
perspective pecking away at any of the potential pull factors 
that we are seeing that create this spike of movement, one that 
is, again, wrought with danger, wrought with exploitation, 
wrought with abuse and abandonment at times is something that 
we are interested in seeing. Again, as Mr. Albence suggested, 
it really is HHS to answer in-depth the question that you are 
posing. But I think a very important point that I would like to 
make from the CBP perspective is that in my opening I talked of 
the complexity that oftentimes I think gets overlooked of what 
it is that is being done at the front line at the border, the 
national security mission, the trade and travel mission, the 
drug interdiction mission, the trade enforcement mission--all 
critical missions that are taxed, if you will, by the surge in 
migrants.
    Senator Lankford. Mr. Chairman, there seems to be some very 
obvious things that we can do. Senator McCaskill has brought up 
again the judges. You have brought up the judges and expanding 
the number of judges. I think it is something that we really 
need to continue to be able to press in on and to say we have 
to have a faster adjudication and due process than 2 years or 
2\1/2\ years.
    One of the issues that we have to address is this issue 
about sponsorship. We tend to ``lose children'' when they go 
and are placed in a home with someone who is already not 
legally present, who has been living under the radar for years, 
and then we are surprised when they both disappear. That should 
not surprise us. If we are going to take care of children, we 
have to find a way to be able to take care of children and not 
put them in the home of someone who is not legally present 
here, but that also discourages people from saying, ``You are 
14 years old. Your Dad is already in the United States working. 
It is time for you to go join him,'' and encourage that 
activity and that connection point.
    The last thing we have not talked about is the licensing of 
the facilities, and I would like to be able to do some follow 
up on that because the Flores Agreement requires a licensed 
facility, but that has been quite a barrier to actually get 
licensed facilities from a State for a family facility, and I 
think it has created an artificial barrier for us, and I would 
like to be able to follow up on those in the days ahead.
    Chairman Johnson. I appreciate that. Again, I think there 
are some pretty commonsense things we can all agree on to start 
solving this problem, but we do need to--granted, in the data 
you talked about children. Seventy percent of the unaccompanied 
children are males, 70 percent are 15 or older. They are not 3 
years old.
    The other thing, Mr. Perez, I want to talk to you about, 
because we have been tracking this very carefully, month by 
month for a number of years, family apprehensions between the 
borders. Again, this is our blue chart\1\ here, and you 
responded to Senator Lankford there were 130,000 individuals 
between the borders and at the ports of entry through August. 
We have 90,000 family units between the borders. Again, I want 
you to check because, again, we have been tracking this very 
carefully, I think potentially--my guess it is 130,000 family 
units, average number in a family is 2.1, is what we have from 
DHS. If you can kind of check that because, again, we need to 
make sure that we are actually talking about the same thing and 
we can use the same figures. OK? Maybe you can have been 
somebody find in terms of, what you just told Senator Lankford.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 90.
---------------------------------------------------------------------------
    Mr. Perez. I would be glad to, Mr. Chairman.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair, and thank you and 
Ranking Member McCaskill for holding this hearing. Thank you to 
all of the witnesses for being here today. To the members of 
law enforcement represented here today, I want to thank you for 
your work.
    I had the opportunity to visit some of the ports of entry 
that CBP runs last spring to look at your efforts around drug 
interdiction, and we are very grateful for the hard work and 
risks that your officers take.
    I wanted to get down to what I think Senator Peters began 
to get to, which is what this hearing really is all about. What 
this hearing comes down to for me is whether the Federal 
Government should be keeping children in detention indefinitely 
while waiting for a judge to review their case. We are talking 
about the indefinite detention of children. That is, frankly, 
not who we are as a country, and it is not what the United 
States should become.
    Senator Peters referenced the American Academy of 
Pediatrics. It strongly opposes long-term detention of 
children. A March 2017 report from the academy notes that such 
detention--and this is a quote--``can cause psychological 
trauma and induce long-term mental health risks for children.''
    The report goes on to say that detaining children can lead 
to physical and emotional symptoms such as post-traumatic 
stress disorder, suicidal ideation, behavioral problems, and 
difficulty functioning in school.
    I am going to ask both Mr. Albence and Mr. Perez just to 
clarify your answer to Senator Peters. Are you aware of that 
report from the American Academy of Pediatrics? First, Mr. 
Albence.
    Mr. Albence. If I could just clarify, we do not have 
indefinite detention.
    Senator Hassan. My question is: Are you aware of that 
report from the American Academy of Pediatrics?
    Mr. Albence. I think I have seen media reports on that 
report.
    Senator Hassan. OK. Mr. Perez?
    Mr. Perez. I am not, Senator. Someone else in the agency 
may be, but I am not.
    Senator Hassan. All right. Thank you. We will make sure 
that you get copies of it.
    In addition to the American Academy of Pediatrics, two 
physicians who work for the Department of Homeland Security 
came forward in July as whistleblowers. They had both visited 
detention centers housing children that provided an appalling 
lack of care, including finding--and this is a quote--``an 
infant with bleed of the brain that went undiagnosed for 5 
days.''
    Those same physicians stated publicly that detaining 
children risks permanent psychological harm, placing children 
at risk of post-traumatic stress and depression later in life.
    Again, Mr. Albence, have you seen these statements from 
these DHS whistleblowers?
    Mr. Albence. I do not believe I have, no.
    Senator Hassan. Mr. Perez?
    Mr. Perez. I have not, Senator.
    Senator Hassan. Beyond the pediatricians and the 
whistleblowers, Immigration and Customs Enforcement itself set 
up an advisory committee of subject matter experts to review 
family detention, and here is what the agency's own advisory 
committee found. It said that DHS should ``discontinue the 
general use of family detention,'' and that in cases where 
detention was absolutely necessary, families should be detained 
for ``the shortest amount of time possible.''
    Now, given that it is DHS' own findings, I am going to 
assume that you guys are familiar with that.
    Mr. Albence, given these findings from the American Academy 
of Pediatrics, DHS whistleblowers, and your agency's own 
advisory committee, why does Immigration and Customs 
Enforcement continue to support modifying the Flores Agreement 
to allow for the indefinite detention of children?
    Mr. Albence. OK. As I previously stated, we do not have 
indefinite detention. The Supreme Court has ruled on that----
    Senator Hassan. But you are recommending the modification 
or overruling of the Flores decision, which would allow the 
indefinite detention of children.
    Mr. Albence. Again, there is not indefinite detention of 
children. People are detained----
    Senator Hassan. Right now there is not because the Flores--
--
    Mr. Albence. If you would let me answer, please.
    Senator Hassan. Excuse me, but I have limited amount of 
time here, and what I am trying to get at is you are all here 
saying--or three of the four of you are here saying that you 
want us to allow the Federal Government to do something that 
the Flores Agreement does not currently allow. I understand 
your current position. But why are you here recommending a set 
of changes that would allow the indefinite detention of 
children?
    Mr. Albence. What we are doing in this regulation is 
implementing the process as contemplated by the court in its 
ruling, which was requiring the licensing of--that children 
could be held in licensed facilities. We have been unable to 
get State licensure in most places. What we have requested and 
are proposing underneath this regulation is to establish a 
Federal licensing scheme which will be similar and mirror to 
what we currently utilize in our standards that would enable us 
to have the authority to hold these individuals. No one is 
arguing there is not a humanitarian crisis. I think the numbers 
show it.
    Senator Hassan. Mr. Albence----
    Mr. Albence. The humanitarian crisis also----
    Senator Hassan [continuing]. I have limited time, so I am 
going to ask you to stop for a second, because what I am 
concerned about is your own agency says that there should not 
be indefinite or long-term detention of children, that it 
should be as short as possible. Instead of going toward the 
remedies that could help us, some that Senator McCaskill 
suggested, some that you have heard other members of the panel 
suggested, instead of going toward those remedies to deal with 
the immigration surge, you are instead recommending something 
that experts in child development and welfare ask you not to 
do, and your own people.
    Now I want to go on to Mr. Perez. Why does CBP continue to 
support indefinite detention of children?
    Mr. Perez. Thank you, Senator. I will respectfully just 
explain that from CBP's perspective, the modification of the 
Flores Agreement is more so a deterrence and/or the ability to 
help deter a myriad of pull factors that exist throughout the 
entire immigration continuum, if you will, by creating a legal 
framework that does not create disparity in the treatment of 
single adults and/or family units.
    Senator Hassan. Thank you. Because, again, I am running out 
of time, I will follow up with you further. First, I am going 
to suggest our office will get to you the various reports about 
the impact on children of long-term--any kind of detention.
    Earlier this year, we were faced with the humanitarian 
crisis that President Trump created on our Southern Border. The 
Administration decided that the best course of action was to 
forcibly separate thousands of children from their parents. 
That was an affront to American values, and Americans all 
across this country from all walks of life objected to it. Now 
the proposed solution that I am hearing today is to keep 
children in detention indefinitely. We know that that is 
harmful to these children, just as forcibly separating children 
from their parents is. Pediatricians are telling us, DHS 
whistleblowers are telling us, that based on the conditions 
they are seeing on the ground, this is wrong and bad for 
children, and the Immigration and Customs Enforcement's own 
advisory committee is telling us that, not to mention that any 
parent can tell you how harmful detention and separation is to 
children.
    I will not support this Committee moving forward with this 
legislation that allows the Federal Government to indefinitely 
detain children. I encourage my fellow Members of this 
Committee and fellow Members of the Senate to do that. We have 
heard lots of suggestions of important and practical ways to 
deal with the backlog and to make sure people come forward not 
only for their first hearing, but also for all subsequent 
hearings in the immigration process. But it is absolutely 
unacceptable to detain children and to have the United States 
of America, the strongest, best country in the world, treat 
children this way because we do not want to do other things 
that are more difficult. That is not who we are. We are 
stronger than that, we are better than that, and we are far 
more capable than that.
    Thank you, Mr. Chair.
    Chairman Johnson. Thank you, Senator Hassan.
    I do want to give Mr. Albence a chance to talk about 
indefinite--from my standpoint, I do not want to see indefinite 
detention. I do not think that is what we are asking. What we 
are saying is give ICE the ability to detain longer than 20 
days so that they do not have to make a gut-wrenching decision: 
Is that the father or is that the sex trafficker? Is that his 
daughter or is that the victim? Because they cannot determine 
parentage in 20 days.
    The whole point would be to provide the resources so that 
we can adjudicate those claims as quickly as possible. Those 
family units that seem eligible for asylum, that is where you 
do some kind of alternative to detention. Those that really 
have no valid claim that it looks pretty much like they are 
going to be removed, remove them as quickly as possible.
    Again, I am certainly not supporting indefinite detention. 
I do not think that is really what ICE is trying to do with 
this Administration.
    Senator Hassan. Mr. Chair, respectfully, without deadlines, 
without caps, without ceilings, detentions can become 
indefinite. We are already seeing and hearing from these very 
witnesses how long it takes for those who are not in detention 
to be heard because we cannot get around to hiring immigration 
judges or trial attorneys fast enough or paying them enough or 
resourcing it enough. As soon as we license detention 
facilities that allow children to be detained for longer, they 
are going to be, by definition, in indefinite detention.
    Chairman Johnson. Again, some limits on that or something, 
I am more than happy to discuss with you. I think it would 
probably be a reasonable proposal. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    I think the common interest for everyone here is, number 
one, children. If we can just kind of take away all of the 
layers and say we are going to focus on keeping children safe, 
because children had no choice on whether they were going to 
come to the border. They were brought by their parents, and now 
we have a situation at our border where people have legally 
applied for asylum, and we are going to have to decide what is 
going to happen.
    Now, what I will tell you is this movement toward more 
permanent detention, if we are going to call it that, of 
minors, what would recommend us that we do that when I look at 
our current record of what is happening to kids in detention?
    Let us just for minute say that we are going to basically 
allow extended detention of children. I have a couple of 
questions. I raised this issue the last time we were all here 
on the Permanent Subcommittee on Investigations (PSI), the 
issue of sex abuse, sexual assault, and rape of immigrant 
children who were detained in facilities under the contract of 
the Federal Government. Where are we at with investigating 
those? Where are we at in reviewing our contractors?
    We have this problem already that has been well reported 
and well documented. Now we are going to put more children in 
harm's way? Where are we at with these--I think maybe for the 
Department of Justice, we will start with you. This problem 
started with you. I think we all know that. It started when you 
decided you were going to separate kids at the border. Now we 
have all these kids that we do not know what to do with and we 
cannot find their parents or their parents may have left 
without them, and they are in facilities where they are being 
abused, sexually assaulted. Whose responsibility is it to fix 
that problem and investigate it and prosecute it?
    Mr. Edlow. Well, Senator, if I may start, I am not sure I 
agree with the premise that the problem started with the 
Department of Justice. The Department of Justice issued a memo 
involving prosecutorial exercise. What the Department was doing 
was stating that the Federal prosecutors along the Southwest 
Border would be prosecuting and would be accepting referrals 
for prosecution from the Department of Homeland Security, 
matters involving unlawful entry under 1325(a) of the act, 
which is----
    Senator Heitkamp. I am more interested in what you are 
doing to investigate instances of sexual assault and otherwise 
abuse of children in our custody.
    Mr. Edlow. Senator, I would defer to the Department of 
Homeland Security and Health and Human Services. I cannot speak 
to what the Department of Justice is doing on--especially if it 
involves ongoing investigations.
    Senator Heitkamp. Do you think it is a Federal crime if 
they are in a Federal contract facility?
    Mr. Edlow. Senator, again, I would not be able to----
    Senator Heitkamp. You should figure that out. I think it 
would be appropriate to at least ask the question of who has 
jurisdiction. Maybe we will turn to the Department of Homeland 
Security. Who is investigating these claims? Can we expect 
indictments and prosecutions any time soon?
    Mr. Albence. I am not aware of any allegations regarding 
sexual assault in any of ICE's FRCs.
    Senator Heitkamp. OK. Maybe we are looking at Federal 
Government facilities. Mr. Perez, can you help me out here?
    Mr. Perez. Thank you, Senator. Our Office of Professional 
Responsibility is looking into the allegations. Some 
allegations, a relatively small number of allegations when you 
consider the nearly half million, again, annually inadmissibles 
that are temporarily detained in facilities that are meant to 
only hold people no more than 3 days, nevertheless comply with 
the Prison Rape Elimination Act standards, comply with our own 
transport, escort, and detention standards. As I mentioned 
earlier, quite typically, not only designed for short-term 
detention, but our front-line agents and officers go over and 
above to make sure that we are complying with all those 
standards.
    Senator Heitkamp. Yes, and----
    Mr. Perez. We are vigorously looking into the allegations 
made, and we are glad to share the outcomes once those 
investigations are----
    Senator Heitkamp. Yes, and out of fairness, we are talking 
about what we are going to do to try and resolve this issue of 
separation of kids, which, that is the Catch-22. I will 
acknowledge what the Chairman is saying. We want these kids to 
be kept with their parents. The American public wants 
appropriate reaction to people who are seeking asylum and not 
letting people get a free pass in because they show up with a 
kid. I get that. I get that we have a challenge here. But a 
common purpose should be preventing children in our custody 
from being abused either physically or sexually, and the person 
who is not at the podium today is HHS. Right? But yet they are 
the entity and they are the organization who is going to be 
responsible for some kind of extended detention of children and 
families.
    We are caught in this spot where we are trying to figure 
out how we can best enforce our law--and we all agree that that 
should happen--and how we can protect kids. It is always the 
kids that seem to take a back seat here. I do not think that is 
right, and I do not think it reflects American values. I do not 
think it reflects the values of who we are. I do not care if 
you are Democrat or Republican. No one thinks kids should be 
put in harm's way.
    But yet the fact that the Department of Justice does not 
know if that is a Federal crime if it occurs at a federally 
contracted facility, that is disturbing to me.
    Mr. Edlow. Senator, what I would say is if there is an 
investigation and there are allegations, and that is referred 
to the appropriate U.S. Attorney's Office for prosecution, then 
based on those facts, the U.S. Attorney's Office will make the 
determination whether prosecution is appropriate.
    Senator Heitkamp. Do you think it is appropriate to 
investigate contractors where this has been systematically 
revealed and discussed and reported?
    Mr. Edlow. Again, if the Department of Homeland Security, 
if CBP is reviewing this through their professional 
responsibility component, certainly if they bring the Justice 
Department in, then we can----
    Senator Heitkamp. OK. I am out of time, but I will tell you 
this: Until someone tells me how they are going to be better 
regulated and how we are going to get these facilities into 
compliance so that children are not abused, either sexually or 
physically, it is going to be really hard for us to expand any 
kind of detention jurisdiction. It is really important for me 
to understand how we are going to create a systemic system of 
protection of children, whether they are detained for 2 days or 
3 days in an ICE facility, whether they are basically part of 
the apprehension process, or whether they are part of a longer-
term detention and, I will call it, the foster care system that 
the Federal Government through HHS is advancing. These are not 
partisan questions. These are questions we need an answer to 
before we move on any additional scoping of detention.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Heitkamp.
    Senator Jones has yielded to Senator Daines. Senator 
Daines?

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. I want to thank Senator Jones, too, for 
yielding. Thanks. Thank you, Mr. Chairman. I want to thank the 
witnesses for coming here today and for the very important work 
that you do for our Nation.
    As we know, the reinterpretation of the Flores Settlement 
Agreement is at the crux of this catch-and-release policy for 
apprehended families. Flores presents a significant hurdle to 
the enforcement of our immigration laws. We need a solution 
that secures our border, upholds the rule of law, and 
accomplishes these goals without separating children from their 
parents as a default policy, and the Administration has made it 
clear that Congress must act, and I heartily agree.
    I am a father of four, raised four children. I understand 
the importance of keeping families together. I also understand 
that the rule of law is a fundamental part of the foundation of 
our Nation, and it also needs to be protected. I helped 
introduce two bills that address family separation at the 
border and offer a fix to Flores. That is the Keep Families 
Together and Enforce the Law Act as well as the Protect Kids 
and Parents Act. Both of these bills would require families 
remain together while the adults who illegally cross the border 
face legal action.
    Furthermore, these bills would authorize additional 
immigration judges and provide mandatory standards of care for 
family residential centers to ensure suitable living 
accommodations.
    Mr. Albence, you listed some specific legislative changes 
that are needed to close the loopholes in our immigration 
system. How would fixing Flores better allow ICE and law 
enforcement to do their job?
    Mr. Albence. Unfortunately, I am limited to what I can 
speak to based on the fact that the rule is out there right now 
for public comment, so I am limited as to what I can say with 
regard to the rule and kind of have to limit my answers.
    I can tell you from an enforcement perspective, the 
transnational smuggling organizations that are bringing these 
people to the country are very good at messaging to the 
individuals in the Northern Triangle and these other countries 
that, if they come to the United States as a family unit, they 
will be processed quickly and released, and they never need to 
appear for court, they never have any repercussions for what 
they have, and no one is going to be out there looking for them 
and finding them. That is why you have a continual surge of 
individuals coming to the border.
    When we in 2014 created family detention, we saw a marked 
drop of almost 30 or 40 percent, I believe, in the number of 
apprehensions by CBP because of the fact that there were 
consequences to that illegal activity that individuals were 
engaging in.
    Senator Daines. Just yesterday the Senate passed 
legislation that will help combat the meth and opioid crisis in 
our country. Before the vote, I went to the Senate floor, and I 
spoke about the devastating effects meth and opioid use is 
having in Montana. We have seen drastic increases in meth and 
heroin use in Montana. In fact, from 2011 to 2017, there was a 
415-percent increase in meth and a 1,234-percent increase in 
heroin found in controlled substance cases in the State. 
Furthermore, we have seen a 375-percent increase in meth found 
in postmortem cases during the same timeframe. Keep in mind, 
Montana is a long ways away from our Southern Border, but those 
drugs are coming through our Southern Border.
    Mr. Perez, as you point out in your testimony, the 
increasing numbers of individuals held in CBP facilities divert 
CBP resources from addressing a number of serious threats to 
our Nation, including transnational criminal organizations and 
dangerous narcotics that are wreaking havoc in places like 
Montana. CBP has a vast mission. I understand it is often a 
balancing act with limited resources.
    My question is: How do we ensure that stopping the flow of 
illicit drugs at the border remains a top priority? How do we 
better prevent these drugs from reaching communities in places 
like Montana?
    Mr. Perez. Thank you, Senator. First, I would like to 
absolutely tell you that it is for CBP an absolute top priority 
amongst the complex mission set that we have; that is, to stop 
this terrible scourge of not only narcotics in general, illegal 
narcotics being trafficked by these transnational criminal 
organizations across our border, but, in particular, the two 
you mentioned: the ongoing synthetic opioid crisis, with 
fentanyl, and other synthetics drugs like meth. This is, again, 
an ongoing daily challenge, but one that we bring all our 
resources to bear--again, all the training and expertise of our 
agents and officers, the technology that we have at our 
disposal, our canines, and our advance information, our 
targeting techniques, again, working alongside our 
investigative arm in ICE to dismantle as well, subsequent to 
seizures, these transnational criminal organizations to the 
best degree we possibly can.
    That is why I circle back with this particular topic, CBP's 
particular interest in what it can possibly and probably do 
with respect to eliminating a pull factor. We would just as 
soon see those numbers of illegal migrants drop, people, again, 
not choosing to take a long, arduous, and sometimes very 
dangerous journey that also exposes them, again, to being 
exploited by human trafficking organizations, by other criminal 
elements, and, frankly, again, criminal organizations that have 
only profit in mind, and then these folks end up becoming 
victims themselves even more so than where it is that they are 
fleeing from.
    That is why it is so critical for us that these loopholes 
be addressed in order to bring those numbers down as far as 
what is actually arriving at and/or between our ports of entry 
at the border.
    Senator Daines. I think it is important because it is a 
zero sum game here. Every moment you are spending here 
addressing the issue of illegal crossings is time spent that 
could be used to stop the flow of illegal drugs.
    Mr. Perez. Thank you, Senator. As I mentioned earlier, 
legitimate trade and travel, national security concerns, pests 
that threaten our agriculture, our economy, those are all 
amongst the myriad of missions that CBP has, including dealing 
with migrants, which we do as humanely and as caringly as we 
possibly can, particularly when children are involved. It is a 
delicate balance that we strive to make.
    Senator Daines. I have a follow up question for Mr. 
Albence. Thank you, and thanks for your work to secure our 
borders.
    Mr. Albence, I want to know if Alternatives to Detention 
work.
    Mr. Albence. Alternatives to Detention are a fairly 
effective tool at getting people to appear at some or all of 
their immigration court hearings. It is a woefully ineffective 
tool at actually allowing ICE to effectuate a removal order 
issued by an immigration judge.
    Senator Daines. Like ankle monitors, for example, effective 
or not?
    Mr. Albence. Again, getting people to a hearing, they are 
fairly effective. Actually enforcing a judge's removal order, 
they are woefully ineffective.
    Senator Daines. Last question. Has the implementation of 
the Memorandum of Agreement (MOA) helped ICE removal criminal 
aliens?
    Mr. Albence. Are you talking about the MOA with regard to 
HHS and the fingerprinting of sponsors?
    Senator Daines. Yes.
    Mr. Albence. Yes, we have arrested 41 individuals thus far 
that we have identified pursuant to that MOA. Our data that we 
have received thus far indicates that close to 80 percent of 
the individuals that are either sponsors or household members 
of sponsors are here in the country illegally, and a large 
chunk of those are criminal aliens. We are continuing to pursue 
those individuals.
    Senator Daines. Thank you.
    Chairman Johnson. Senator Jones.

               OPENING STATEMENT OF SENATOR JONES

    Senator Jones. Thank you, Mr. Chairman. Thank you to all of 
our witnesses for appearing here today on this really important 
topic.
    I want to talk a little bit about procedure. To Mr. Albence 
and Mr. Edlow, are you familiar with the studies that show 
immigrants with counsel are four times more likely to win their 
cases than those without counsel? Are you familiar with that, 
Mr. Albence?
    Mr. Albence. I may have seen some media reporting on that, 
but I cannot say I am intimately familiar with the report.
    Senator Jones. Mr. Edlow, are you familiar with it?
    Mr. Edlow. Again, I have seen some reporting on several 
studies of that nature. I cannot speak to that specific one.
    Senator Jones. Well, it seems to be important because if 
that study--and I have no reason to doubt that study--that 
immigrants that have counsel are five times more likely to win 
their cases, I think it is a testament to who is crossing the 
border and why. We may be deporting folks that have legitimate 
cases simply because they do not have access to counsel.
    My question for both of you is: Is the Department of 
Justice and is Homeland Security doing anything to try--are you 
taking into account in your processes the ability of folks to 
be able to get counsel? Because right now there is no 
constitutional right to counsel. They either have to get a pro 
bono counsel or try to get retained counsel, which is difficult 
to do.
    Is the ability to get counsel any factor in your 
considerations?
    Mr. Albence. Thank you. Yes, actually we have a very 
extensive legal orientation program that we work with many 
nongovernmental organizations to provide legal counseling and 
pro bono counseling to our detainees. We actually had them 
onsite in our family residential center in Dilley, Texas. They 
actually have office space, and one of the first things that 
the aliens that are booked into that facility experience is 
that legal orientation program. They have a private room to 
meet to go over their asylum claims before they speak with the 
asylum officers from CIS. Any individual that we arrest, 
families or otherwise, that we take into custody, we provide 
them with a list of free legal services and other opportunities 
of which to avail themselves.
    Senator Jones. All right. If you get more lawyers--and I 
will come to you real quick Mr. Edlow, but if you get more 
lawyers--you mentioned more lawyers to prosecute these cases. 
Will you also try to expand the legal services ability for 
these immigrants that are coming in?
    Mr. Albence. We will certainly do whatever we can to 
provide individuals with whatever legal orientation programs 
that they want to avail themselves of.
    Senator Jones. All right. Mr. Edlow.
    Mr. Edlow. Thank you, Senator, for raising this topic. With 
regard to counsel, as I am sure you are well aware, the 
immigration laws do not allow for government-funded counsels. 
Certainly if Congress wishes to change the law, Congress is 
free to do so, but certainly at this stage, the government 
cannot provide counsel.
    The role of the immigration judge during the immigration 
court proceedings is to ensure a fair hearing for both sides, 
and oftentimes that means that if the alien is unrepresented, 
the judge has to step in and ensure that the alien is getting 
their entire claim out----
    Senator Jones. But that also bogs down the process. My 
experience is that in court proceedings of almost 40 years of 
practice now, the people that are represented by counsel, the 
proceedings move at a better pace and much more efficiently. 
Would you not agree with that?
    Mr. Edlow. I would, but I would also note that if--you have 
to make sure it is an immigration lawyer that is coming to the 
proceedings on behalf of the alien because a lot of times when 
pro bono counsel come in, there is a learning curve at that 
point----
    Senator Jones. Sure.
    Mr. Edlow [continuing]. That they need to figure out. But 
what I am saying, though, is in these instances, first of all, 
the judges give, when necessary, continuances to allow 
respondents to seek counsel that is both detained and non-
detained, get time to seek counsel, especially non-detained get 
a significant period of time. Depending on the city where the 
court is, it could be several months. But ultimately, if the 
judge decides that the case has to go forward with the 
respondent unrepresented, there is a painstaking process that 
is taken to ensure that that alien gets a fair hearing and that 
those claims are fleshed out to the degree that they need to 
be.
    Senator Jones. Well, would you not agree, though, that 
someone that is being detained has a harder time trying to 
retain counsel than someone who is not detained? Is your 
proposed rules that we are talking about now, does it take into 
account the ability to get counsel?
    Mr. Edlow. Those are two separate questions. Let me take 
the second one first.
    Senator Jones. OK.
    Mr. Edlow. Just so you are aware, the Department of Justice 
is not a party to the proposed rule.
    Senator Jones. Right.
    Mr. Edlow. I cannot comment on those rules, especially as 
we are in the middle of the notice and comment period.
    In terms of the attorneys coming into the courtroom, 
though, there are a significant number of organizations that 
regularly go to these detained facilities to make themselves 
available to detained respondents, and that may include 
themselves representing these respondents. It may also be that 
they put these respondents in touch with other available pro 
bono attorneys.
    Senator Jones. There is a process in place.
    Mr. Edlow. There is a process in place. I think in a lot of 
cases it may be easier for a detained individual to meet with a 
pro bono attorney or meet with a legal organization that is 
looking to provide pro bono services than a non-detained alien.
    Senator Jones. All right. Well, I would encourage all 
parties to try to do what they can to ensure a swift ability to 
get counsel, because I think it will speed up the process, it 
will help the process, and particularly consider doing more to 
get these children advocates or guardians ad litem throughout 
our court system. No matter if a child is injured or whether it 
is part of an adoption proceeding, they always have guardians 
ad litem to protect their interests, which I also think would 
help protect their safety.
    The last thing in the remaining time, Mr. Edlow, I would 
like to talk about the filing system that you guys have. Over 
30 years ago, the Federal courts went to electronic filing, and 
in 2001, EOIR also decided that they would implement an 
electronic filing system. But as of today, it is still not 
there. We are still dealing in the Dark Ages, like I am with 
this paper. I have books instead of my iPad sitting here. But, 
look, I have been practicing law a long time, and I know how 
efficient it can run when you have an electronic filing system.
    What is going on, why the delay in what every court in 
America is doing these days to speed their process and make it 
more efficient?
    Mr. Edlow. Senator, thank you for your question. I cannot 
speak to what previous Administrations did or did not do, what 
action they were able to take to move this along. I can tell 
you from personal experience practicing in immigration court 
for many years, it would have been very helpful to have an 
electronic filing system. I can also tell you that EOIR is 
working very hard to get a pilot program out there and to get 
the kinks worked out so that we can do a nationwide rollout.
    Senator Jones. Have you any kind of timeline on that?
    Mr. Edlow. Senator, I would get back to you on that. I 
would want to speak to the folks who are handling it at EOIR to 
make sure that I get you the right information.
    Senator Jones. All right. Great. Well, please do that.
    Thank you very much, Mr. Chairman.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you. Senator Jones, I actually have a 
piece of legislation, the Access to Counsel Act. I could not 
agree with you more. These folks should not be denied access to 
counsel when they arrive.
    Mr. Albence, to follow up on questions you have been 
previously asked by my colleagues regarding the position of 
medical experts, including the American Pediatrics Association 
and the American Medical Association, you told us in July, I 
believe, ``With regard to the family residential centers, I 
think the best way to describe them is to be more like a summer 
camp.'' When pressed on this statement, you said that you were 
``very comfortable'' with the treatment of the immigrants at 
these centers. Do you stand by that statement?
    Mr. Albence. Absolutely I do.
    Senator Harris. Do you believe they are like summer camps?
    Mr. Albence. I believe the standards under which they are 
kept are very safe, they are humane.
    Senator Harris. Do you have children or do you know 
children that have attended summer camp? Would you send your 
children to one of these detention centers?
    Mr. Albence. Again, that question is not applicable. What I 
can tell you is that I went to a codel there just 3 weeks ago 
with Senator Boozman and Senator Capito, and what we saw there 
were children receiving excellent medical care. We saw children 
playing in the gymnasium. We saw families sitting at computers 
in a library that was well stocked. We saw a cafeteria that was 
spotless with unlimited amounts of food with regard to when 
they eat. They live in dormitory settings with televisions, 
Xboxes, and a host of other recreational opportunities.
    Senator Harris. But you can understand the concern to 
suggest it is like a summer camp would suggest that a parent 
would voluntarily send their child to a place like that to have 
a good time for the summer. I think----
    Mr. Albence. Well, you are missing the point----
    Senator Harris. Excuse me. I am not----
    Mr. Albence [continuing]. The parent made the illegal 
entry. The parent put themselves in this position. They made 
the illegal entry into the country. That is why they are there.
    Senator Harris. You are here because this is an oversight 
committee hearing, so I am asking you specific questions to 
gauge your ability to actually conduct oversight over the 
operations of your agency.
    Moving on, Mr. Perez, I am sure you are aware of the great 
public outrage at seeing images of young children in CBP 
custody in large metal detention cages. They apparently have 
been given Mylar blankets and camping pads to sleep on concrete 
floors for multiple nights.
    Since the President signed the Executive Order on June 20, 
2018, regarding family separation, have any families been 
separated at the border? And if so, how many?
    Mr. Perez. Thank you, Senator. We are not separating 
families at the border, at or between the ports of entry. As I 
mentioned earlier, the temporary detainment facilities that are 
run at the ports of entry, run by the Border Patrol, are meant 
for short-term holding. The men and women on the front line of 
CBP go above and beyond not only to impose standards on 
maintaining the sanitary, the healthy conditions, and the care 
of those in our custody, family units, adult and children----
    Senator Harris. I just want to be clear that we are 
thinking the same thing. I am asking, are you saying then that 
no families have actually been separated since the Executive 
Order was signed on June 20?
    Mr. Perez. The only instances where families would be 
separated is if there is an element of false parentage, a 
criminal situation with the actual adult and the child, a 
health concern or a safety concern for that child.
    Senator Harris. Do you know how many such cases there have 
been since June 20, 2018?
    Mr. Perez. We could get back to you on that, Senator, but, 
again, those would be the only circumstances, with the safety 
and well-being of the child first and foremost on our mind, 
where a family would be separated.
    Senator Harris. Other than that, there are no families that 
have been separated since the signing of that Executive Order?
    Mr. Perez. Yes, ma'am.
    Senator Harris. Then, Mr. Albence, I have asked repeatedly 
for information on the number and the status of any cases, if 
they exist, where your agency has referred an adult who 
accompanied a child to prosecution for trafficking, and I have 
still not received that information.
    In your briefing, I am sure you are prepared to answer the 
question because I ask it every time. How many cases has your 
agency referred to the Department of Justice for prosecution or 
even investigation of trafficking since that appears to be the 
basis for some of your policies, a concern that trafficking 
exists?
    Mr. Albence. Thus far, Homeland Security Investigations 
(HSI) within ICE has initiated 778 human trafficking 
investigations, has made 1,410 human trafficking arrests, 
criminal arrests, has obtained 759 indictments and 425 
convictions.
    Senator Harris. Since what date is that?
    Mr. Albence. That is this fiscal year, up through August 
31st.
    Senator Harris. Are those cases where the concern was that 
an adult who was accompanying a child--that is the specific 
question, adults who are accompanying a child who arrive at our 
border, how many of those cases have been referred for 
trafficking prosecution?
    Mr. Albence. We would have to get back with you on that. We 
would have to go look in our records to see.
    Senator Harris. OK. When can I expect----
    Mr. Albence. But I am certainly glad----
    Senator Harris [continuing]. To get that information?
    Mr. Albence. I would not think it would take more than a 
couple of weeks.
    Senator Harris. OK. By the end of next week? Is that 
doable?
    Mr. Albence. I will go back and talk to--I am not quite 
familiar with the Investigative Case Management (ICM) and how 
searchable it is, but once I find out, we will certainly let 
you know.
    Senator Harris. OK. I appreciate that.
    I do not know if it either Mr. Albence or Mr. Perez, 
whichever--if both of you can answer this question. But I am 
assuming that you are both aware that there are affidavits that 
have been filed this summer alleging that children faced 
limited access to food and water and experienced spoiled food, 
freezing temperatures, and verbal and physical assault in CBP 
custody. Mr. Perez, are you aware of that?
    Mr. Perez. Thank you, Senator. As mentioned earlier, our 
Office of Professional Responsibility alongside DHS' Office of 
Inspector General (OIG) have been investigating any and all of 
those allegations of misconduct. We take those investigations 
and those allegations very seriously, as we do with any other 
allegation of misconduct by either contractors or employees. 
Nevertheless, very confident that, given the amount of intake 
and allegations and cases that there are versus the nearly, 
again, almost half million inadmissibles that we are detaining 
and encountering, that the instances with which this is 
occurring are relatively modest and, again, our front-line 
agents and officers are doing the best they can to take care of 
these folks over and above----
    Senator Harris. Thank you. I have just a few seconds left. 
I have asked on both April 22 and May 15 DHS officials about 
CBP employee training as it pertains to the handling of 
children, as well as training that pertains to the handling of 
the youngest children in your detention facilities, and I have 
not received a response. Can one of you tell me where that 
information is or if it exists at all, and that is, what you 
are doing to train your employees who are having direct contact 
with children and their parents on how they should be 
approached in the least traumatic manner?
    Mr. Perez. Absolutely, Senator. We can get back to you. I 
will make sure that we do respond to you with the actual 
laydown of the training that we provide. But I can tell you 
very briefly that our agents and officers annually are required 
to take training both with respect to potential human 
trafficking concerns, exploitation of children, and/or the care 
and custody of the children in our temporary detention 
facilities through our transportation escort and detention 
standards.
    Senator Harris. Thank you. Again, I will note I asked for 
this information on April 26 and again on May 15, so I would 
appreciate your swift response.
    Thank you.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Welcome one and all.
    I want to return to a subject that I have turned to many 
times on this Committee, as my colleagues will affirm, and that 
is root causes. I have long been a proponent of commonsense 
comprehensive immigration reform to fix our broken immigration 
system. But it seems to me that a proposal to hold families 
indefinitely fails to address an incredibly important part of 
the equation, and that is the push factor that leads so many to 
seek safe haven here in the United States.
    When I was privileged to serve as Chairman and Ranking 
Member of this Committee, I made any number of trips to Mexico, 
to Central America, to Honduras, Guatemala, and El Salvador in 
order to try to better understand the root causes of migration 
to the United States, joined by a number of members of this 
panel, including our Chairman and Senator Heitkamp.
    What I learned on those trips is that many people in those 
countries live in fear for their lives, Gang violence is in too 
many instances rampant. Government officials are too often 
unaccountable. Many people have no hope or little hope of a 
better economic situation for themselves and their families.
    I think unless we work with our neighbors to the south and 
continue to work with our neighbors to the south, work more 
effectively with our neighbors to the south to address the 
factors that lead so many to seek safe haven in the United 
States, including lack of rule of law, unimaginable violence, 
the lack of economic opportunity, we are simply putting a Band-
Aid on the problem.
    In its most recent budget request, the Trump administration 
asked for about $430 million to support the U.S. strategy for 
engagement in Central America. I think that is less than half 
of what was initially sought by the Obama Administration. It is 
about almost a third less than this year's appropriation.
    This occurred despite the fact that some in the 
Administration, including General John Kelly and Commissioner 
Kevin McAleenan, have argued for continued funding for this 
strategy. Thankfully, bipartisan Senate appropriators agreed on 
the importance of continued funding, and they restored 
President Trump's cuts.
    Parents and children facing sure death at home or likely 
death at home will continue to make this dangerous journey to 
our borders despite nearly any inhumane policy this 
Administration or other Administrations might pursue.
    For all the witnesses, this question: Take a moment and 
react to that. Do you agree that any effective strategy to 
secure our border must address the root causes of migration? 
Let us start with you, Ms. Gambler.
    Ms. Gambler. I think that seems reasonable, and certainly 
through GAO's work, as you have indicated, Senator, we found 
that there can be a mix of factors contributing to 
unaccompanied children leaving their countries and coming to 
the United States, to include both factors in their home 
countries as well as factors here.
    Senator Carper. Thank you. Mr. Edlow.
    Mr. Edlow. Thank you, Senator. Certainly in terms of the 
root cause of the migration, you are going to see push and pull 
factors with what is going on here in this country. We saw that 
in 2015 when the Flores interpretation came out that it 
included accompanied minors. We saw an increase in 
apprehensions of families along the border. I am not saying 
that is the only reason that they were coming, but certainly 
that does help.
    Also, when there appears to be a consequence, there does 
appear to be a drop in those apprehension numbers, too. We saw 
after President Trump's inauguration that there was a 40-
percent decrease in apprehensions for a period of months.
    Certainly there are so many varied push and pull factors 
that would have to be addressed, and I would just say that the 
Department welcomes legislation to address those to come up 
with a more equitable solution moving forward.
    Senator Carper. Thank you. Mr. Perez.
    Mr. Perez. Thank you, Senator. I believe you mentioned the 
Commissioner's previous testimony. I can assure you that CBP, 
alongside our DHS colleagues, continue to invest and put forth 
a significant effort in working with our counterpart agencies 
throughout the hemisphere, particularly in Mexico and the 
Northern Triangle, the creation of vetted units, systems and 
information sharing, capacity building to the extent of even 
modernizing and helping them to modernize some of their trade 
functions, to address the different push factors. That does 
certainly remain a priority for CBP and something that we are 
going to continue to put forth an effort on.
    I would just echo my colleagues comment that, for us it is 
so critically important given the entirety of this, as I like 
to call it, ``immigration continuum,'' that it is an effort for 
the push and pull factors, which are many, so that whenever we 
have the opportunity to address some of those, to again prevent 
someone from ever embarking on what is oftentimes a very 
dangerous journey, that we would again welcome those 
discussions.
    Senator Carper. Thank you.
    Mr. Albence, just be very brief in your response, if you 
would.
    Mr. Albence. I would just echo the sentiments of my 
colleagues. ICE has invested significant resources both on its 
Homeland Security Investigations as well as Enforcement and 
Removal Operations in the Central America and Mexican regions 
to help dissuade some of this travel. I will also say I think 
it is a humanitarian issue, and I think it is incumbent upon us 
to limit those pull factors that exist, to stop people from 
making this dangerous journey. If individuals in those 
countries know that they are going to spend their life savings 
to try to get here and run that risk of going through cartels 
and smugglers and all sorts of horrific abuse that happens to 
them on the trip, and that when they get to this country, if 
they have no lawful right to be here, that they will actually 
be ordered removed, and that removal order will be effectuated 
in a timely fashion, that humanitarian issue will decrease 
significantly because people will stop making the trip, as we 
have seen before.
    Senator Carper. I do not ask a lot of yes or no questions, 
but I am going to ask one now. It is not a trick question. It 
is just yes or no, and it would be helpful. Would you all 
support a proposal that provides funding to address the root 
causes of migration from Central America, which ensure that law 
enforcement there has the resources it needs to fight organized 
crime, drug cartels, and gangs? Mr. Albence.
    Mr. Albence. Yes, sir.
    Senator Carper. Thank you. Mr. Perez.
    Mr. Perez. Yes, Senator.
    Senator Carper. Mr. Edlow.
    Mr. Edlow. I am sorry. The Department would have to take a 
look at the legislation and then make a determination whether 
it could be supported.
    Senator Carper. Thank you.
    Ms. Gambler, would you care to take a gamble on that one?
    Ms. Gambler. Of course, funding decisions are within 
Congress' authority, but certainly we agree that there are 
factors in those Central American countries that are 
contributing to some of the migration.
    Senator Carper. All right. I am out of time.
    Chairman Johnson. We do have a vote called.
    Senator Carper. I understand. I have some more questions 
for the record.
    Let me just say one thing in closing. We have been funding 
this Alliance for Prosperity now for, I think, maybe our third 
year, and the Chairman has been down to these same places, 
sometimes us together, other times on separate codels. I have 
watched with interest over the last 20 years what has happened 
in Colombia, a place where, 20 years ago, you had a bunch of 
gunmen who rounded up their supreme court and shot them all to 
death. To go from that point in time to a country that is 
stable, not perfect but economically strong and vibrant, has 
actually made a success of themselves--we have helped them. I 
always like to say it is just like Home Depot: ``You can do it. 
We can help.'' That is what we have done with Colombia, and 
that is what we need to continue to do with Honduras, 
Guatemala, and El Salvador. If we do, they can do it. But we 
need to help.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper. Before you 
leave, just a couple of points.
    If you can put my blue chart\1\ up there for my next 
question? We have traveled down there, and we have done a lot 
of hearings, and I think we would agree that it is our 
insatiable demand for drugs that gave rise to drug cartels and 
destroyed public institutions down there. We bear 
responsibility. But I want to ask Mr. Perez real quick, the 
exact same detention facilities that we were really on a 
nonpartisan/bipartisan basis praising in 2014 at the height of 
the UAC crisis, those are the exact same detention facilities 
that CBP is using to just handle, again, the continuing flow of 
unaccompanied children and family units, correct?
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 90.
---------------------------------------------------------------------------
    Mr. Perez. They are, Mr. Chairman.
    Chairman Johnson. Again, they are not designed to keep 
people in cages for--this is really you are funneling people 
through these detention facilities where you delouse them, you 
provide some additional medical assessment, and try and move 
them out of there within about a 24-hour period, correct?
    Mr. Perez. As best and as quickly and safely as we possibly 
can, and effectively, yes, Mr. Chairman.
    Chairman Johnson. Again, I just want to make sure, because 
right now--in 2014 we were praising CBP's efforts. Now we are 
calling them cages, and they are the exact same facilities.
    Real quick, that chart, I think, is pretty telling. A 
picture says an awful lot. What it tells me is that detention 
did work. We had Secretary Michael Chertoff in 2008, when we 
had the Brazilian crisis, where there were 88 apprehensions in 
1992; in 2005, because of a number of reasons, there were 
32,000. Then Secretary Chertoff really began a process of 
apprehending, detaining, and removing them back to Brazil. A 
year later, there were less than 1,500.
    The Obama Administration kind of recognized the same point. 
In 2014 we saw a surge in UACs as well as family units. We 
began detaining with the whole process of those that did not 
qualify for asylum would be returned. From my standpoint, it is 
pretty obvious that worked. Anybody want to dispute that? Mr. 
Albence, do you believe that detention did serve as an 
effective deterrent?
    Mr. Albence. I think detention, coupled with removal and 
consequences to illegal activity, serves as an effective 
deterrent. Detention in and of itself is----
    Chairman Johnson. Again, I am saying detention and removal. 
OK. Mr. Perez.
    Mr. Perez. I believe the data speaks for itself, Mr. 
Chairman, with respect to what it is that can possibly be 
realized when there are consequences that are delivered for 
illegal activity.
    Chairman Johnson. Mr. Edlow.
    Mr. Edlow. Senator, I would echo what my colleagues have 
already said. Certainly when there is a consequence, we see 
immigration flows respond to that consequence.
    Chairman Johnson. Ms. Gambler.
    Ms. Gambler. We have not specifically studied the issue to 
be able to make an assessment one way or the other, but----
    Chairman Johnson. This is like a sentient human being, you 
kind of look at that, and you figure something is going on 
there, right?
    Ms. Gambler. But I would add more broadly, not just as it 
relates to families, but certainly, Border Patrol and CBP have 
implemented programs to apply consequences to individuals who 
are apprehended crossing the border, and I think the intent of 
those consequences is in part to address what you are speaking 
to.
    Chairman Johnson. Mr. Perez, you talked about the 
perception in Central America. It is way more than a 
perception. It is a reality. The drug cartels, the human 
traffickers, the transnational criminal organizations are using 
these loopholes, right? They are talking about--whether it was 
back in 2012--Deferred Action for Childhood Arrivals (DACA), 
the permiso slips. They are using that, telling individual from 
Central America, ``Come on to America. You can stay.'' By and 
large, they stay, correct?
    Mr. Perez. Thank you, Mr. Chairman. That is why I followed 
up with my comment about the perception being at times a 
reality, that the loopholes that exist by virtue of, judicial 
decisions and/or legal loopholes in effect have had and made 
these perceptions an operational reality by not being able to 
deliver uniform consequence throughout the entirety of the 
immigration process.
    Chairman Johnson. Mr. Albence, do you basically concur with 
that fact, whether it is the Flores decision, whether it is the 
human trafficking bill in 2008, these created a circumstance 
that is being used and being exploited by drug cartels and 
human traffickers, correct?
    Mr. Albence. Certainly. Not only does our intelligence tell 
us that, the individuals that we interview, that CBP 
interviews, tell us that, but the numbers speak for themselves.
    Chairman Johnson. Ms. Gambler, in your testimony you talked 
about that the Administration had actually met its goals in 
terms of alternatives to detention. That was set at 2,899 out 
of a population of approximately 40,000 in the program? I mean, 
that is 7 percent. That is not exactly a stretch goal, is it?
    Ms. Gambler. No, it is not, and that measure in particular 
was fairly new when we looked at the program. It had only been 
in place for about 2 years.
    I would also add that, at least at the time that we were 
reviewing the Alternatives to Detention program, which was a 
few years ago, that was measuring removals and it was counting 
whether or not aliens who had been in an Alternatives to 
Detention program at any point during the same fiscal year in 
which they were removed. I know that Mr. Albence was mentioning 
some more recent data, and if it would be helpful, GAO would be 
happy to take a look at that as well.
    I think there are some intricacies in terms of the data 
associated with the Alternatives to Detention program and its 
performance that might be helpful to the Committee for us to 
provide information on if it is helpful.
    Chairman Johnson. I would say in preparation for this 
hearing, all the information I got, bottom line, we need a lot 
more information in terms of real data on Alternatives to 
Detention. Again, it sounds like a good idea, but I think there 
are some real problems with it that we need to flesh out here. 
These types of statistics, where 99 percent show up to a 
hearing, yes, until they get a removal order, and then it does 
not really behoove them--it makes a lot of sense to show up to 
a hearing. You just might get asylum. But the minute you find 
out you are not going to get asylum, you abscond.
    Those are just commonsense human behaviors, and, of course, 
a very low level goal, I mean, underpromise, overdeliver, that 
is good in business, but I think we need to point out that 
fact.
    A final point. The Administration is undergoing a 
rulemaking procedure, and this is really a sales pitch to pass 
legislation that hopefully the courts will not overrule, they 
would actually respect the fact that Congress has spoken. But 
to fix this, the Administration is undergoing a rulemaking, 
which was contemplated in the Flores settlement, correct, Mr. 
Edlow?
    Mr. Edlow. Yes, Senator. Back in 2001, there was a 
stipulation agreed to and added into the Flores Settlement 
Agreement that specifically contemplated the agreement 
terminating within a certain period of time following 
promulgation of regulations.
    Chairman Johnson. A couple laws have been passed. When 
Congress passed those laws, they probably figured they were 
taking care of the Flores Settlement, but the courts have not 
recognized those laws, basically, correct?
    Mr. Edlow. That is correct, specifically TVPRA. Had it said 
this is enacted to terminate the Flores Settlement Agreement, 
it probably would have at that point.
    Chairman Johnson. OK. I guess my final point--and this is 
why I think Congress has to act--and I know you really cannot 
answer this, but I am going to ask you to, anyway. What do you 
think the probability is that, when the Administration issues a 
rule on this, going through the process, the Administrative 
Procedures Act, that it is going to be challenged in court and 
will not be able to put into effect? It will basically have the 
same problem, the courts will overrule the rulemaking.
    Mr. Edlow. The Department--I really cannot comment----
    Chairman Johnson. Does anybody want to comment just from a 
commonsense standpoint? I know my view on that. It is going to 
be an extremely high probability that the courts will intervene 
and this rulemaking will never be put into effect.
    Mr. Edlow. Senator, I would just add that should the rule 
be challenged following the notice and comment period--and I am 
fully confident that the Department of Homeland Security and 
Health and Human Services will respond to those comments that 
come out of this process--the Department will stand ready to 
defend the challenges as they come forward.
    Chairman Johnson. But it would be a whole lot cleaner and a 
whole lot more certain if Congress would act and pass a law and 
fix this particular problem, correct?
    Mr. Edlow. Certainly, legislation would be preferable.
    Chairman Johnson. OK. That is all I was looking for.
    Again, I want to thank all of you for taking the time, for 
your testimony, for answering our questions. I think this 
hearing has definitely been helpful. I think it has moved us 
forward in this Committee. We still have information. I am 
looking forward to future cooperation so we can get all the 
facts, get all the information so we can set an achievable 
goal, which I think is more than an achievable goal, so we can 
design a solution on what I would call a nonpartisan basis.
    With that, the hearing record will remain open for 15 days 
until October 3 at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:23 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
